<html>
<title> - PREPARING FOR CLIMATE CHANGE: ADAPTATION POLICIES AND PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
     PREPARING FOR CLIMATE CHANGE: ADAPTATION POLICIES AND PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 25, 2009

                               __________

                           Serial No. 111-21


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
67-818                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a3c4d3cce3c0d6d0d7cbc6cfd38dc0ccce8d">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman

JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JAN SCHAKOWSKY, Illinois             SUE WILKINS MYRICK, North Carolina
HILDA L. SOLIS, California           JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           TIM MURPHY, Pennsylvania
JAY INSLEE, Washington               MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin             MARSHA BLACKBURN, Tennessee
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
ANTHONY D. WEINER, New York          STEVE SCALISE, Louisiana
JIM MATHESON, Utah                   PARKER GRIFFITH, Alabama
G.K. BUTTERFIELD, North Carolina     ROBERT E. LATTA, Ohio
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA CHRISTENSEN, Virgin Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE BRALEY, Iowa
PETER WELCH, Vermont

                                  (ii)


                 Subcommittee on Energy and Environment

               EDWARD J. MARKEY, Massachusetts, Chairman
MICHAEL F. DOYLE, Pennsylvania       DENNIS HASTERT, Illinois
G.K. BUTTERFIELD, North Carolina          Ranking Member
CHARLIE MELANCON, Louisiana          RALPH M. HALL, Texas
BARON HILL, Indiana                  FRED UPTON, Michigan
DORIS O. MATSUI, California          ED WHITFIELD, Kentucky
JERRY McNERNEY, California           JOHN SHIMKUS, Illinois
PETER WELCH, Vermont                 HEATHER WILSON, New Mexico
JOHN D. DINGELL, Michigan            JOHN B. SHADEGG, Arizona
RICK BOUCHER, Virginia               CHARLES W. ``CHIP'' PICKERING, 
FRANK PALLONE, New Jersey                Mississippi
ELIOT ENGEL, New York                STEVE BUYER, Indiana
GENE GREEN, Texas                    GREG WALDEN, Oregon
LOIS CAPPS, California               SUE WILKINS MYRICK, North Carolina
JANE HARMAN, California              JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
JIM MATHESON, Utah
JOHN BARROW, Georgia



                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachussetts, opening statement..............     1
    Prepared statement...........................................     3
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     5
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     6
    Prepared statement...........................................     8
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     9
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................     9
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    10
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................    11
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................    12
Hon. Jane Harman, a Representative in Congress from the State of 
  California, opening statement..................................    12
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, opening statement................................    13
Hon. Charlie Melancon, a Representative in Congress from the 
  State of Louisiana, opening statement..........................    14
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................    15
Hon. Tammy Baldwin, a Representative in Congress from the State 
  of Wisconsin, opening statement................................    16
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................    17
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................    18

                               Witnesses

Thomas Karl, Director of the National Climatic Data Center, 
  National Oceanic and Atmospheric Administration................    19
    Prepared statement...........................................    22
John Stephenson, Director of Natural Resources and Environment, 
  Government Accountability Office...............................    31
    Prepared statement...........................................    33
Larry Schweiger, President and CEO, National Wildlife Federation.    47
    Prepared statement...........................................    49
E. Calvin Beisner, The Cornwall Alliance for the Stewardship of 
  Creation.......................................................   104
    Prepared statement...........................................   106
Lord Christopher Monckton, Third Viscount Monckton of Brenchley..   117
    Prepared statement...........................................   119
David Waskow, Climate Change Program Director, Oxfam American....   159
    Prepared statement...........................................   161
Bishop Callon Holloway, Evangelical Lutheran Church in America, 
  On Behalf of The National Council of Churches..................   171
    Prepared statement...........................................   173

                           Submitted Material

Letter of March 24, 2009, from the Outdoor Industry Association 
  to Mr. Inslee, submitted by Mr. Inslee.........................   253


     PREPARING FOR CLIMATE CHANGE: ADAPTATION POLICIES AND PROGRAMS

                              ----------                              


                       WEDNESDAY, MARCH 25, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:30 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Edward J. 
Markey (chairman) presiding.
    Members present: Representatives Markey, Inslee, 
Butterfield, Melancon, Matsui, McNerney, Welch, Dingell, Green, 
Capps, Harman, Baldwin, Barrow, Upton, Hall, Stearns, Shimkus, 
Pitts, Walden, Sullivan, Burgess, Scalise, and Barton (ex 
officio).
    Staff present: Matt Weiner, Legislative Clerk; Melissa Bez, 
Professional Staff; Michael Goo, Counsel; Lindsay Vidal, Press 
Assistant; Amanda Mertens Campbell, Minority Counsel; Peter 
Spencer, Minority Professional Staff; Andrea Spring, Minority 
Professional Staff; and Garrett Golding, Minority Legislative 
Analyst.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Welcome, ladies and gentlemen, to the 
subcommittee on Energy and Environment. Today's hearing is on 
Adaptation Programs and Policies as we prepare to deal with 
inexorable, inevitable consequences of climate change.
    Nearly 20 years ago, Congress passed the Global Change 
Research Program Act of 1990, which requires the preparation of 
a national assessment of the consequence of climate variability 
and change. This assessment was designed to help understand the 
impacts of climate change in the United States.
    A distinguished panel of experts completed that assessment 
in 2000. One of the lead authors, Dr. Tom Karl, is with us here 
today. On the front cover of the report were these prophetic 
words: ``Humanity's influence on the global climate will grow 
in the coming century. Increasingly there will be significant 
climate change related problems that will affect each one of 
us.'' We must begin now to consider our responses as the 
actions taken today will affect the quality of life for us and 
for future generations.
    In the decade since that report was completed, global 
warming has not waited. It has accelerated. Climate change is 
occurring as we speak, and the greenhouse gases already in the 
atmosphere will continue to warm the planet for decades.
    In the United States and the world, we must work together 
to successfully combat climate change. Mitigation, the act of 
reducing greenhouse gas emissions, will not be enough. Our 
country and other nations must also implement adaptation 
policies to respond to changes in our climate, in our 
ecosystems, and in our infrastructure.
    The many changes predicted in the national assessment are 
already happening, and they are happening faster than expected. 
An updated 2008 assessment of the 2007 report of the 
Intergovernmental Panel on Climate Change documented many of 
these changes. According to the UN Panel, North America has 
experienced locally severe economic damage plus substantial 
ecosystem, social, and cultural disruption from recent weather-
related extremes, including hurricanes, other severe storms, 
floods, droughts, heat waves, and wild fires.
    Whether it is the eroding coastal areas of Louisiana, 
Texas, or the Atlantic states, the floods in the Midwest, 
hurricanes in Florida, wildfires in California, or the loss of 
snow pack in the Pacific Northwest, I am sure that every member 
of the subcommittee has their own story of how a changing 
climate has affected their area.
    North America is not the only continent facing adaptation 
challenges. Internationally, low-lying island states like the 
Maldives could literally go under as sea levels rise. As a 
result, the president of the Maldives is considering purchasing 
land to prevent his population from becoming ``climate refugees 
living in tents for decades.''
    In Africa, the UN Panel projected that by 2020, 250 million 
people will be exposed to increased water stress due to climate 
change and yields from rain-fed agriculture could be reduced by 
up to 50 percent, severely compromising food production.
    This, in turn, could lead to significant national security 
issues for the United States. The UN Panel also noted that if 
warming continues unabated, 30 to 40 percent of all the species 
on the planet will be at risk of extinction.
    In the climate change bill I introduced last year, I 
included provisions for a national climate service. A national 
climate service would create a central source of federal 
information on climate change, ranging from projections of 
additional sea level rise to mapping the nation's best sites 
for solar and wind power. This information will be vital in the 
years ahead and will reap tremendous long-term dividends. I 
look forward to hearing from NOAA to discuss their plans to 
implement this much-needed program.
    Adaptation alone cannot solve climate change. We can and 
must take actions to reduce emissions. Yet as we enter the 
warming world that we have now created for ourselves, we must 
recognize that we, as humans, have worldwide responsibilities 
for all of God's creatures, both human and animal, many of whom 
have little or no ability to adapt to climate change on their 
own. They will need our help, and we should be prepared to 
provide it as best we can.
    I hope that that will be our goal as we craft our ongoing 
adaptation policies. I look forward to our witnesses' 
testimony.
    [The prepared statement of Mr. Markey follows:]

    [GRAPHIC] [TIFF OMITTED] T7818A.001
    
    [GRAPHIC] [TIFF OMITTED] T7818A.002
    
    Mr. Markey. I turn now to recognize the ranking member of 
the subcommittee, the gentleman from Michigan, Mr. Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman. As you said, our 
hearing today is on climate change adaptation policies. And I 
view, as you know, cap and tax as a policy that requires 
adaptation. How will Americans adapt to losing their jobs? How 
do we adapt to increased energy costs? How do we adapt to a 
legislatively imposed economic recession? How does the nation 
adapt to losing its superpower status?
    Cap and tax isn't our only option. We can pursue policies 
that will both help the environment and our economy. And by 
design, a cap and tax can only hurt the economy while providing 
a questionable environmental benefit. It is indeed a scheme. 
Absent of global agreement that includes the heavy emitting 
developing countries, cap and tax will only send energy costs 
up while sending employment numbers down or some place else.
    This year, the U.S. will reduce its greenhouse gas 
emissions. We will reduce them, and we will do it without cap 
and tax. Emissions are way down in Michigan this year, but 
emissions levels haven't even dropped to the 1990 levels, and 
folks are asking for 80 percent below those levels by the year 
2050 perhaps.
    How do we get those reductions down so far? Unemployment in 
Michigan is already about 13 percent. 15 percent perhaps isn't 
too far away with greater reductions in emissions. But in this 
debate over climate change, we have lost sight of our real 
goal. We have lost sight of what our policy should achieve. The 
focus has become a cap and tax as an end in itself. What about 
reducing global temperatures?
    As one who believes that climate change must be dealt with 
on a global scale, I have advocated a no-regrets policy that 
will achieve the same, if not better, results as an arbitrary 
cap-and-tax scheme at a fraction of the cost.
    In fact, there are policy options available that would have 
a net economic and societal benefit while at the same time, 
cutting emissions. We have lost too many jobs already. We 
shouldn't pursue options that will make matters worse.
    If we are going to pass climate change legislation, it 
should adhere to the following five principles. One, provide a 
tangible environmental benefit to the American people. Two, 
advance technology and provide the opportunity for export. 
Three, protect American jobs. Four, strengthen U.S. energy 
security. And five, require global participation.
    These principles deal with the issue of cost versus 
benefit, the cost of action as well as inaction. Cap-and-tax 
schemes simply don't meet that criteria. We don't need costly 
mandates if we invest in clean coal technology, remove the 
regulatory barriers to nuclear power, reward efficiency gains 
and allow a technology to succeed in a marketplace. And we 
won't need the developing world to remain in the Stone Age, if 
we want to export American technology. We don't need to lose 
millions of jobs if we help our energy-intensive industries in 
domestic auto manufacturers with their R and D investments.
    Climate change is a global problem, and it requires a 
global solution. And without joint international action, jobs 
and emissions will simply ship some place else overseas to 
countries that require few, if any, environmental protections, 
harming the global environment as well as the United States 
economy. And I yield back.
    Mr. Markey. Gentleman's time has expired. The chair 
recognizes the gentleman from Michigan, Mr. Dingell.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Thank you, and I commend you for holding this 
hearing. It is important. You are building a record which I 
hope will be very important as we go through the consideration 
of climate change legislation.
    Today's hearing is also on a matter that is important. The 
funds generated by an auction are already in great demand for 
all manner of things, some with great merit, some with rather 
less, and some with quite frankly, none. As we have already 
seen in the President's budget, the funds generated from an 
auction are being counted on for budget purposes.
    I note that the fourth assessment report of the 
Intergovernmental Panel on Climate Change noted ``observational 
evidence from all continents and most oceans shows that many 
natural systems are being affected by climate changes, 
particularly temperature increases.'' In the same report, we 
are warned that in the lifetime of a child born today, 20 to 30 
percent of the world's plant and animal species will be on the 
brink of extinction if we don't take action now.
    I would note that the wild lands that we have a chance to 
save here are of immense value, not just to the future of 
society, but also to the purpose which we have, which is 
protecting us against climate change. So we must consider the 
value of marshes, mountains, forests, and ecosystems which can 
serve both as carbon sumps and also as opportunities for 
conservation in the traditional sense.
    A great conservationist, one that we all admire, the 26th 
president of the United States, Theodore Roosevelt, taught us 
that conservation is also a great moral issue. That it is our 
duty as it ensures safety and continuity for this nation.
    So, Mr. Chairman, as we move forward, I remain committed to 
securing a dedicated fund for natural resource adaptation. I 
encourage the members of this subcommittee to look at subtitle 
B of the Dingell-Boucher draft released last year, which has in 
it carefully crafted natural resource adaptation language that 
was written by my staff and the staff of the natural resources 
committee. And it has the support of most, if not all, the 
conservation community.
    Similar actions are going to be taken by the committee on 
natural resources. So I want to thank you for holding this 
hearing today, Mr. Chairman. And I hope that my colleagues will 
join me in saving some of the precious treasures that we can 
save, using the resources and the finances generated by the 
auctions, which will take place for the monies that we can 
produce for a very important cause. I thank you, and I yield 
back the balance of my time.
    [The prepared statement of Mr. Dingell follows:]

    [GRAPHIC] [TIFF OMITTED] T7818A.003
    
    Mr. Markey. We thank the gentleman. The chair recognizes 
the gentleman from Illinois, Mr. Shimkus.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. The right of free 
speech is a great right that we have in this country. Very few 
times we use it to espouse our theological religious beliefs, 
but we do have members of the clergy here as members of the 
panel. So I want to start with Genesis 8, verses 21 and 22. 
``Never again will I curse the ground because of man even 
though every inclination of his heart is evil from childhood, 
and never again will I destroy all living creatures as I have 
done. As long as the earth endures, seed time and harvest, cold 
and heat, summer and winter, day and night will never cease.'' 
I believe that is the infallible word of God, and that is the 
way it is going to be for his creation.
    The second verse comes from Matthew 24. ``And he will send 
his angels with a loud trumpet call, and they will gather his 
elect from the four winds, from one end of the heavens to the 
other.'' The earth will end only when God declares it is time 
to be over. Man will not destroy this earth. This earth will 
not be destroyed by a flood.
    And I appreciate having panelists here who are men of 
faith, and we can get into the theological discourse of that 
position. But I do believe God's word is infallible, 
unchanging, perfect.
    Two other issues, Mr. Chairman. Today we have 388 parts per 
million in the atmosphere. I think in the age of the dinosaurs 
when we had the most flora and fauna, we were probably at 4,000 
parts per million. There is a theological debate that this is a 
carbon-starved planet, not too much carbon. And the cost of a 
cap-and-trade on the poor is now being discovered. These miners 
lost their jobs through the last--and Mr. Chairman, we have 
talked about this job lost. I have an IDNR report, Illinois 
Department of Natural Resources, that points to four mines that 
were closed specifically because of Clean Air Act amendments in 
1990. I am going to share those with you later because we did 
have that discussion, and I do appreciate that.
    Appreciate the hearing, and I look forward to the 
questions. Thank you, Mr. Chairman.
    Mr. Markey. We thank the gentleman. The chair recognizes 
the gentlelady from California, Ms. Matsui.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Mr. Chairman, and thank you very 
much for this hearing today. I am eager to hear from today's 
witnesses about how our communities and our world can adapt to 
climate change, and adapt we must.
    California's Department of Water Resources projected that 
the Sierra Nevada snow pack will experience a 25 to 40 percent 
reduction by 2050. These are not empty numbers. They represent 
real impacts of climate change that translate into serious 
risks for my constituents.
    As California's climate warms, more of the Sierra Nevada's 
watersheds will contribute to peak storm runoff. High frequency 
flood events are projected to increase as a result. We have no 
choice but to adapt to these changing realities.
    In Sacramento, we live by two beautiful rivers, the 
Sacramento and the American. As global warming intensifies, 
scientists predict greater storm intensity that could forever 
change these rivers' flow patterns. This means that my district 
will have to cope with more direct runoff and more flooding.
    California has not hid from these changes. Instead, we are 
leading the way in cutting greenhouse gas emissions. We are 
developing a comprehensive climate adaptation strategy. 
However, California and the entire United States will need 
additional resources to adapt to the realities of climate 
change. Water resource adaptation strategies will need to be 
coordinated between local, state, and federal leaders. And 
states with strained budgets and growing needs will require 
federal funding in order to adapt and protect our communities. 
That is why upcoming climate legislation must be bold and 
resourceful when it comes to adaptation policy.
    I thank you, Mr. Chairman, for this hearing, and I look 
forward to today's testimony. I yield back the balance of my 
time.
    Mr. Markey. We thank the gentlelady. Chair recognizes the 
gentleman from Pennsylvania, Mr. Pitts.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Thank you, Mr. Chairman. Thank you for convening 
today's hearing on this important topic. I believe it is 
imperative to look at the role of adaptation as we continue to 
discuss cap-and-trade legislation. Human beings are designed to 
be able to adapt to changing climate temperatures, and there 
are repeated examples in history of mankind being able to adapt 
when temperatures have fluctuated.
    However, adapting to drastic job losses and a failing 
economy due to burdensome cap-and-trade or massive bureaucratic 
regulations or a national energy tax scheme will be incredibly 
difficult for all Americans. A March 2009 National Public Radio 
survey said that Americans' top concern is the decline in the 
stock market and investment losses. The second highest concern 
is job losses.
    Every American realizes that we are in a time of economic 
trouble. So we must ask the question. Is it prudent to pass a 
cap-and-trade bill which will increase the cost of energy and 
conceivably cause 3.75 million job losses? What is more, is it 
prudent to pass legislation that will make matters even worse 
by levying a new national energy tax that could cost families 
up to $3,100 per year?
    Mr. Chairman, we need to carefully consider the negative 
impact a cap-and-trade bill with the a national energy tax will 
have on our economy. I do not believe it is in the best 
interest of American families to pass a bill that will make 
their way of life harder and more challenging.
    Instead, we should focus on investment in economic growth 
and direct actions to adapt to climate change as better 
alternatives. I look forward to hearing our witnesses today and 
yield back.
    Mr. Markey. Thank the gentleman. The chair recognizes the 
gentleman from Texas, Mr. Green.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, and I appreciate you 
calling this hearing on adaptation policies and programs. One 
of the things I would like to say is I hope whatever this 
committee creates, cap-and-trade, that those dollars that are 
generated from it would be designated for the direct utility 
consumer assistance and not be used as a piggy bank for the 
U.S. government. We need to make sure that we deal with the 
policies that we really are trying to protect.
    While Congress continues to debate how to address future 
greenhouse gas emissions, many scientists believe we must learn 
to adapt to changes in the earth's climate caused from 
emissions existing in the atmosphere today. Human beings have 
been adapting in our world for literally millions of years. 
Altered climate systems may have impacts on our environmental 
economic well being, and agencies at all levels of the 
government must be tasked when implementing adaptation policies 
to respond to real or potential climate change threats.
    This is not an easy task. Previous natural disasters in the 
U.S. have shown how woefully ill-prepared our nation is in 
responding to natural events. A hurricane in the Gulf of Mexico 
is not unusual, whether it was Hurricane Katrina or Rita, or 
the most recent was Hurricane Ike that was the first hurricane 
to hit the Houston that I represent for 25 years. Thousands of 
homes were destroyed. Vast areas of our community were left for 
weeks without power, and many areas were short on essentials, 
food, ice, or water supplies.
    We must avoid the mistakes of the past and create more 
efficient and responsive federal recovery efforts for natural 
events. Coordinating climate research and monitoring across the 
federal government will be challenging, and I hope to learn 
more about NOAA's efforts to provide policymakers with the 
latest climate information and assessments.
    Perhaps most important will be preparing officials for 
decision-making and future planning based on unknown or 
unreliable factors. According to the National Research Council 
the decision rules that assume a stationary climate are no 
longer valid.
    I hope we can create the tools and provide the resources 
necessary to assist officials in preparing for outside-the-box 
thinking to address these future conditions. State and local 
governments would also be provided assistance to perform local 
assessments at climate impact related preparation efforts such 
as updating flood plain maps and reinforcing levees and flood 
drainage systems, conditions to survive for those vulnerable to 
climate change, particularly low-income Americans with 
insufficient resources to prepare or adapt to the changing 
environmental conditions.
    And thank you again for the hearing, Mr. Chairman. I yield 
back my time.
    Mr. Markey. Great. Thank the gentleman. The chair 
recognizes the gentleman from Texas, Mr. Burgess.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Mr. Chairman, and I certainly look 
forward to hearing from our witnesses today. I think we have a 
very varied and potentially a very lively panel, and I am sure 
it will be very enlightening as well as very entertaining.
    Now, I am not sure how the climate is going to change in 
the future or necessarily what effect our behaviors today are 
going to have on the planet, but one thing I do know is we need 
to do a better job ensuring that people are prepared for 
changes, changes in the weather, changes in natural disasters.
    This is something we can address without necessarily taxing 
carbon or proposing or imposing a cap on carbon or establishing 
a trading platform where sophisticated investors can work up 
exotic carbon options and manipulate the market and make great 
sums of money.
    Now, next month in my district, I will be hosting an 
emergency preparedness summit. I want to ensure that I am 
providing the people in my district with information and 
resources that they need to survive and overcome changes in the 
environment. I don't have to tell my constituents because the 
weather in Texas is legendary. It changes constantly, and we 
have some of the most varied weather between hurricanes, 
tornadoes, hailstorms, snow, sleet, dust storms. We have some 
of the most varied cosmological conditions on the planet.
    But taking the time to prepare and plan ahead does save 
money and does save lives. And that leads me to the point of 
today's hearing. Preparing for any potential effects of climate 
change would be far less costly to the economy than mandating a 
carbon cap. And I have said it before this committee. Strong 
and growing economies are more likely to develop the technology 
and the breakthroughs that we need to spur the next wave in 
energy innovation.
    Stifling the economy with carbon mandates may actually 
stifle our ability to solve this very problem. And yesterday, 
in the ``Washington Post'' the second editorial, I believe, 
dealt with just that issue. That it would be more 
straightforward and more honest of this committee to be talking 
about a carbon tax as opposed to a cap-and-trade. I don't 
support a carbon tax. I think it is the wrong idea, but let us 
not hide behind this cloud of obfuscation with a cap-and-trade 
when really what we are going to do is tax energy, tax jobs, 
and tax carbon. I will yield back.
    Mr. Markey. Okay, the gentleman's time has expired. The 
chair recognizes the gentlelady from California, Ms. Harman.

  OPENING STATEMENT OF HON. JANE HARMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Harman. Thank you, Mr. Chairman. Global warming needs a 
two-pronged approach. One, mitigation and two, as we have been 
discussing this morning, adaptation. We are just beginning to 
understand that even if we implement an aggressive mitigation 
policy and significantly begin to reduce greenhouse gases, our 
nation and the world will still confront the impacts of global 
warming, including changes in weather patterns, deadly heat 
waves, and increasing infectious disease outbreaks.
    This is why any climate bill passed from this committee 
must address adaptation. California is already in the process 
of developing a statewide adaptation strategy because of its 
vulnerability to global warming. For example, my district 
includes a breathtaking part of the California coast, one of 
our nation's most beautiful natural resources. As a result of 
rising sea levels and increased storm intensity, we could lose 
the beaches. This not only affects the quality of life for me 
and my constituents but will have a huge financial impact with 
the loss of tourism dollars.
    My district will also confront other California-wide 
impacts such as a reduced water supply as salt water mixes with 
our fresh water sources, increased air pollution, and more days 
with temperatures over 100.
    The consequences of global warming will also lead to major 
national and global security concerns. And as someone who 
focuses on security, this is where, I think, we all need to 
focus. They include large scale human migration due to resource 
scarcity, increased competition for food, water, and other 
resources, increased frequency and severity of disease 
outbreaks. The impact of climate change, such as 
desertification in the horn of Africa, could lead to conflicts 
and push countries to the brink of collapse. This could 
strengthen terror groups that are already active in the region 
and could be a central breeding ground and safe haven for 
jihadists.
    That is why I am pleased that we are studying climate 
change as a part of our national intelligence estimates, and I 
think it is absolutely critical, Mr. Chairman, to focus on 
adaptation here as one of the strategies that will hopefully 
keep our country and the world safer. I yield back.
    Mr. Markey. Okay, we thank the gentlelady. The chair 
recognizes the gentleman from Louisiana, Mr. Scalise.

 OPENING STATEMENT OF HON. STEVE SCALISE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Scalise. Thank you, Mr. Chairman. This is an important 
hearing, and I appreciate the panel's participation today. It 
is the job of Congress to seek ways to promote our country's 
economy prosperity and to support policies that protect our 
country's national security interests. It is my opinion that a 
cap-and-trade energy tax does neither and runs contrary to 
where our focus should be in these tough economic times.
    The members of this subcommittee do not all agree on the 
causes of climate change, nor have all of the experts that have 
come before our group. While the debates on the causes of 
climate change have not been settled, what also has not been 
called into question is the fact that a cap-and-trade energy 
tax will cost this country millions of good jobs and will force 
the average American family to pay thousands of dollars in 
increased energy costs.
    President Obama's budget director, Peter Orszag, has even 
testified that energy taxes designed to decrease carbon 
emissions will be passed on to American families. According to 
Mr. Orszag, the average American household, the cost to them 
would be about $1,300 a year for a 15 percent cut in 
CO<INF>2</INF> emissions. He admitted to Congress last year 
that the price increases borne by consumers are essential to 
the success of a cap-and-trade energy tax. If the idea is to 
promote clean energy, why do we continue to reject nuclear 
power as an alternative source of energy? Energy production and 
development in our country has come a long way over the past 
few decades.
    Instead of taxing American families and the small 
businesses that create wealth in this country, we should 
promote policies that encourage the development of new, cleaner 
technologies. That is the direction and the course that we are 
currently on, and we should continue to travel that path 
instead of crippling our economy when we can least afford it.
    There are countless small businesses across America that 
are watching the subcommittee's action very closely to 
determine their future in our country. They employ millions of 
Americans and want to continue to invest here, but if we act 
irresponsibly, these firms will pack up and ship their 
investment and American jobs overseas.
    And to add insult to injury, many of the countries where 
these companies will relocate do not have the environmental 
standards that we already have today in America.
    These are important issues we need to discuss, and I look 
forward to hearing from the panel. Thank you, Mr. Chairman.
    Mr. Markey. Great. We thank the gentleman. Chair recognizes 
the gentleman from Louisiana, Mr. Melancon.

OPENING STATEMENT OF HON. CHARLIE MELANCON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Melancon. Thank you, Mr. Chairman. I would like to 
thank you for holding this hearing today, and I appreciate the 
conversations we have had and your decisions to try and look at 
all energy sources. I appreciate the ability of you to 
recognize that we need to explore all avenues.
    We are here today to talk about the effect of climate 
change in the world around us, and I find it interesting that 
some people say it is a world problem now since we didn't 
participate in Kyoto. We should have been there at that point 
in time so we wouldn't be discussing what we need to be doing, 
which is different now.
    Even if this Congress enacted climate change legislation 
tomorrow, it would be impossible to avoid the consequences 
related to the early effects of climate change. In fact, my 
district has felt the effects of warm ocean waters firsthand. 
Three years ago, Hurricanes Katrina and Rita made landfall on 
the coast of Louisiana and leveled entire cities. Nearly 2,000 
lost their lives to those storms, and tens of thousands more 
lost everything else.
    The widespread devastation from the greatest natural 
disaster this country has ever seen is still evident today. 
Communities across the Gulf are facing rising tides, increased 
temperatures in the Gulf, which leads to stronger hurricanes. 
And in the case of Louisiana, the fastest sinking coastline in 
the country. Louisiana has lost over 1,900 square miles of land 
since the 1930s. That is more land than the entire state of 
Rhode Island.
    This country can't survive without coastal communities. 
These are the people that provide the seafood that we eat, the 
energies that drives our economy, and the labor that keeps our 
exports flowing to buyers around the world. Keeping our coastal 
communities alive ensures the health of the rest of the 
country, and to help these coastal communities preserve as the 
vibrant hubs of hard work and the culture that they are, we 
must all work together to find creative ways to adapt to the 
world that is always changing around us.
    Again thank you for your interest and your help in this 
matter.
    Mr. Markey. We thank the gentleman. The chair now 
recognizes the gentleman from Texas, Mr. Barton.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman. I want to again 
commend you and Chairman Waxman for holding these series of 
hearings. They are very informational and informative, and most 
of the time, they are even entertaining. So I am grateful, as 
always for this regular order.
    I especially want to thank Lord Monckton for testifying. He 
is generally as one of the most knowledgeable, if not the most 
knowledgeable experts from a skeptical point of view on this 
issue of climate change. And we are very glad that he could 
stay over this week in the United States and testify at this 
important hearing.
    Today's hearing is about adaptation. Adapting is a common 
natural way for people to adapt to their environment. I believe 
that the earth's climate is changing, but I think it is 
changing for natural variation reasons. And I think mankind has 
been adapting to climate as long as man has walked the earth. 
When it rains, we find shelter. When it hot, we get in shade. 
When it is cold, we find a warm place to stay. Adaptation is a 
practical, affordable, utterly natural reflex response to 
nature when the planet is heating or cooling, as it always is 
doing one or the other.
    As Lord Monckton will testify, in the Middle Ages, it was 
warmer almost everywhere in the world than it is today. Some of 
our ancestors grew grapes in Britain. Others sailed ice-free 
seas to settle northern places like Newfoundland and Greenland. 
This period used to be known as the Medieval Warm Period. It 
was followed by the Little Ice Age, the Period of Dramatic 
Cooling, which lasted until the middle of the 19th Century.
    During the Little Ice Age, both the Vikings and the British 
adapted to the cold by changing. I suppose that one possible 
adaptation response of Viking retrenchment and British 
expansion is that we are conducting the hearing today in 
English instead of Norwegian.
    In the Chesapeake Bay and the Piedmont Marsh, the lower 
Hudson Valley, layers of sediment reflect what happened to the 
North American continent. That history shows that the nature of 
the climate is to change and to make organic shifts in 
temperature regardless of mankind's presence or supposed 
influence.
    Nature doesn't seem to adjust to people as much as people 
seem to adjust to nature. I think that it is inevitable that 
humanity will adapt to global warming. I also believe the 
longer we postpone finding ways to do it successfully, the most 
expensive and unpalatable the adjustment will become.
    Adaptation to shifts in temperature is not that difficult. 
What will be difficult is the adaptation to rampant 
unemployment, enormous, spontaneous, and avoidable changes to 
our economy if we adopt such a reckless policy as cap and tax 
or cap-and-trade. That will devastate our economy, and we will 
have great difficulty adapting to that.
    The majority of this committee has promised, and I hope 
this is a promise they don't meet, to introduce an economy-wide 
cap-and-trade bill in the next month no matter that the past 
seven years have witnessed a cooling period. Europe just 
experienced its coldest winter in the last 20 years last 
winter.
    In the name of the house of cards posing as scientific 
certainty and an alarmist policy asserted by its followers with 
a religious fervor, the Democratic majority apparently is hell-
bent to propose to cap our economy and trade away our jobs. 
Some of us on this committee are going to try to stop that or 
at least deflect it.
    On top of the very real threat of job losses caused by 
closed factories, shut down mines, vacant power plants rendered 
uncompetitive under an American cap-and-trade scheme, the new 
majority's cap-and-trade goal is to make our electricity so 
expensive, our gas so pricey, and our food so dear that we will 
be forced to change the way we live. We will literally be 
forced to change the American way of life.
    We have had hearing after hearing where armies of witnesses 
representing both sides of the debate have warned us that the 
impact of cap-and-trade on everybody in this country but the 
mega-rich. The people at greatest risk are low income, middle 
income families, blue-collar workers, the elderly, and those 
whose jobs will be destroyed--and I say will be, not may be, 
will be destroyed if we adopt a cap-and-tax policy.
    The question is not how Americans will adapt to cap-and-
trade legislation. The question is if and how we will survive 
when blackouts, rampant job loss, and empty cupboards threaten 
out very way of life. With those cheery words, Mr. Chairman, I 
yield back, and I look forward to this hearing.
    Mr. Markey. And we thank the gentleman. The chair 
recognizes the gentleman from Georgia, Mr. Barrow. The 
gentleman's time will be reserved. The chair recognizes the 
gentlelady from Wisconsin, Ms. Baldwin.

 OPENING STATEMENT OF HON. TAMMY BALDWIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Ms. Baldwin. Thank you, Mr. Chairman. I woke up this 
morning and watched a little bit of the morning news, and the 
headlines were about very unnatural adaptation that is going on 
in North Dakota. Apparently hundreds of citizens spent the 
night last night filling over a million bags with sand as they 
are trying to race against time to keep the Red River within 
its bank. It is now twice its natural level, and, of course, 
our thoughts go out to them.
    Last year, I witnessed firsthand the extreme rain and 
flooding and devastation that people in my district and across 
the upper Midwest experienced as a result of intense rainfall. 
We lost homes and businesses and farmland, not to mention 
millions of dollars of productivity. Wisconsinites also will 
not soon forget the severe winter storms that we shoveled our 
way out of a year ago. My hometown had more snow than had ever 
been recorded since such measurements began to be taken decades 
and decades ago. And in fact, we beat the old existing record 
by 40 percent approximately.
    Many, including leading experts on climate change, fear 
that, as a result of unabated increases in greenhouse gas 
emissions, this record rain and snowfall will become the norm. 
These events used to be called 100 year events or 500 year 
events, and we find them happening separated only by years or 
decades these days.
    And as the various regions across the country and the world 
experience sweeping changes in precipitation and weather 
patterns, not only is the environment at risk, but also food 
and water supplies, ecosystems, social structure and national 
security.
    Fortunately, adaptation efforts are occurring to minimize 
both the cost and severity of climate change. In Wisconsin, 
local communities like Dane County are assessing lake levels to 
minimize property damage. Funding wetland restoration efforts 
and updating the hazardous mitigation plan, which identifies 
potential impacts of natural hazards.
    Smart planning is essential to ensuring that the most 
vulnerable regions and populations are protected. I expect our 
witnesses today will inform us about other adaptation practices 
taking place around the globe.
    Finally, let me state what I hope many here will agree 
with, that the impacts of climate change vary greatly from area 
to area. As such, to the extent that future proceeds are 
directed to support adaptation strategies, we must recognize 
that states and localities are best equipped to make decisions 
about how to effectively and efficiently invest in these 
practices. I hope we keep that in mind as we craft our bill. 
And thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Markey. The gentlelady's time has expired. The chair 
recognizes the gentleman from Florida, Mr. Stearns.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Mr. Chairman, thank you and my good friend Mr. 
Upton for having this hearing. It is nice to have, as Mr. 
Barton mentioned, Lord Monckton here. He was a policy advisor 
to the Prime Minister Margaret Thatcher. And so he is a very 
good witness for us to have, Mr. Chairman. And I would like to 
welcome Dr. Beisner from Florida from Broward County. Dr. 
Beisner is a welcome witness here from my home state.
    We have gone through this whole idea of cap-and-trade here 
and is a mantra for global warming and now is a mantra for cap-
and-trade. But if you said to yourself is there any country in 
the world who is doing cap-and-trade? Well, there is. The 
European Union has put in place cap-and-trade. Phase one was 
tried, and now they are into phase two. As I understand it, 
they had to suspend the cap-and-trade commodity exchange 
because of very serious problems on ethics.
    And I think, Mr. Chairman, in all deference to you, I think 
we should also have a hearing on how cap-and-trade is working 
in the European Union because if you have something that is 
actually being implemented somewhere, then it does not become 
theoretical. It becomes pragmatic and actual. And so, at this 
point, we can theorize here, but the bottom line is let us see 
how it is working in Europe.
    Now, I can quote obviously statistics to show--but the 
bottom line is that where are your statistics to show this 
enormous increase in jobs because of the greening or the cap-
and-trade? So I think you have to show us that. We can show you 
statistics that we are going to lose jobs. It is going to 
increase taxes, but I think it is incumbent upon you folks when 
you talk about all these new jobs from the greening of America, 
where are they coming from? And what kinds of jobs are they? 
And I yield back. Thank you, Mr. Chairman.
    Mr. Markey. We thank the gentleman. The chair recognizes 
the gentleman from North Carolina, Mr. Butterfield.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you very much, Mr. Chairman, for 
convening this important hearing and particularly to the seven 
witnesses. Thank you for coming forward today.
    Mr. Chairman, the effects of climate change at times now 
seem distant compared to the pressing matters of restoring our 
economy, dealing with AIG bonuses and the like and, of course, 
attending to our budget. But ignoring this issue would be a 
terrible, terrible mistake. Regardless of our success at 
curbing greenhouse gas emissions, the global temperatures will 
continue to rise in the coming decades.
    Consequentially, we face rising sea levels, increased 
tropical storm activity, more precipitation in wetter areas and 
less in dryer areas, and increased spread and range of disease. 
This will affect immunities domestically and abroad. And low-
income communities will be at greatest risk.
    It would be my hope, Mr. Chairman, that in a cap-and-trade 
bill to see regular funding generated from auction revenue 
dedicated to 2 to 3 percent each for both domestic and 
international adaptation efforts annually.
    Domestically, the Department of Interior and the U.S. Army 
Corps of Engineers should administer these funds to deal with 
sea level rise and flood reduction and wise water use. 
Internationally, the U.S. Agency for International Development, 
as we call it, USAID, should administer the funds to promote 
ecosystem-based adaptation.
    Further, investments in deploying technology to developing 
countries, aiding farmers who face shifting weather patterns, 
and responding to increases in tropical-borne disease are 
imperative to confronting the coming problems rather than 
reacting to them.
    Again, Mr. Chairman, thank you for convening this hearing. 
I yield back the balance of my time.
    Mr. Markey. Okay, gentleman's time has expired. All time 
for opening statements has been completed. We are now going to 
turn to our very distinguished witness panel. I will advise the 
panelists before we begin that I am going to strictly enforce 
the 5-minute rule. So my advice to you would be this. I am 
going to introduce you so everyone will know who you are. You 
will not have to reintroduce yourself. If you have three key 
points and they are on page three of your testimony, move them 
up to the top, and then at the very end, if there is time left 
over, you can tell us more about your wonderful organizations.
    Okay, but get to your key points. I will be tapping the 
gavel right at 5 minutes, so please try to make sure that you 
think in those terms as we are going along.
    Our first witness is Mr. Thomas Karl, director of the 
National Oceanic and Atmospheric Administration, National 
Climate Data Center. Dr. Karl has had a distinguished 
scientific career and has served as lead author on many key 
scientific reports including as a lead author on the recent 
fourth assessment of the Intergovernmental Panel on Climate 
Change, and as the co-chair of the National Assessment on 
Climate Variability and Change. We thank you for joining us, 
Mr. Karl. Whenever you are ready, please begin.

 STATEMENTS OF THOMAS KARL, DIRECTOR OF THE NATIONAL CLIMATIC 
 DATA CENTER, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION; 
JOHN STEPHENSON, DIRECTOR OF NATURAL RESOURCES AND ENVIRONMENT, 
 GOVERNMENT ACCOUNTABILITY OFFICE; LARRY SCHWEIGER, PRESIDENT 
 AND CEO, NATIONAL WILDLIFE FEDERATION; E. CALVIN BEISNER, THE 
    CORNWALL ALLIANCE FOR THE STEWARDSHIP OF CREATION; LORD 
  CHRISTOPHER MONCKTON, THIRD VISCOUNT MONCKTON OF BRENCHLEY; 
DAVID WASKOW, CLIMATE CHANGE PROGRAM DIRECTOR, OXFAM AMERICAN; 
  AND BISHOP CALLON HOLLOWAY, EVANGELICAL LUTHERAN CHURCH IN 
     AMERICA, ON BEHALF OF THE NATIONAL COUNCIL OF CHURCHES

                    STATEMENT OF THOMAS KARL

    Mr. Karl. Thank you, Chairman Markey, Ranking Member Upton, 
and members of the committee. I appreciate the opportunity to 
testify before you today. First I do want to make note that Dr. 
Lochanko, our new administer for NOAA, sends her regrets for 
not being able to be here today. This is her third day on the 
job, and she looks forward to working with the committee in the 
future.
    I wanted to mentioned that the Intergovernmental Panel on 
Climate Change definition of climate change refers to climate 
change over time, whether due to natural variability or the 
result of human activity. One of the things that we have 
already seen in many observed changes in the climate within the 
United States and globally.
    These include changes in air and water temperature, sea 
level, fresh water, severity of intense hurricanes. These kind 
of changes are likely to increase and continue and have 
profound effects on the physical and biological environment, 
our economic prosperity, human health, and national security. 
There are typically two courses society can take to respond to 
climate-related impacts.
    First is mitigation. Mitigation meaning options for 
reducing heat-trapping gases. Second is adaptation. Adaptation 
meaning changes that can be made to better respond to present 
or future climate change and other environmental conditions, 
thereby reducing harm and taking advantage of whatever 
opportunities a changing economy may present.
    Adaptation can include a wide variety of activities. 
Farmers deciding to grow crops in a different way. Moving 
business centers away from coasts, protecting coastlines. There 
are a countless number of adaptation plans that already have 
been devised. A few of them have actually been implemented but 
very few.
    NOAA is the nation's provider of weather and climate data 
and information. We assemble this from a great variety of 
sources. NOAA's climate information services result from a long 
history of collaboration coordination with our sister agencies, 
NASA, USGS, USDA, National Science Foundation, other government 
agencies.
    Climate information such as drought forecasts, long-term 
precipitation trends, fire forecasts, the frequency and 
intensity of coastal storms are all examples of the kinds of 
information that NOAA provides and will be useful for 
adaptation plans and strategies that will be developed by 
resource managers.
    NOAA works with customers and stakeholders to ensure we are 
providing high-quality information that is user-friendly, 
responsive, relevant to the issues being addressed. Increasing 
demands today for adaptation information, however, are 
straining the ability of the agency to provide the kinds of 
information that is being requested at the appropriate space 
and time scales.
    Some of the categories for climate information products and 
services, technical assistance, and training that NOAA provides 
today include scientific assessments of climate change and 
impacts, as the chairman has mentioned. We work with a number 
of partners in providing information services in support of 
adaptation. This would include applications to living green 
resources, applications to coastal communities, and 
applications to water resources just to name a few.
    In closing, I wanted to mention that despite the 
substantial efforts that NOAA has had to date, there still 
remains significant knowledge gap, uncertainties for 
adaptation, as well as impediments to flows of knowledge 
information relevant for decision makers.
    In addition, the scale at which reliable information is 
produced does not always match what is needed for adaptations 
decisions. We have considerable information about and 
confidence about changes in broad-scale aspects of climate 
change. Often questions are asked of us to provide local and 
regional information where the certainty is less apt to be as 
confidently applied as might otherwise be in a more general 
case. So there is clearly a need for some new tools and new 
science to ensure that adaptation progresses at the most 
appropriate pace.
    An effective response to changing climate conditions is 
going to require integrated flexible and responsive government-
wide approach. To help this need, NOAA has been working to 
build on existing capacities to create seamless integrated 
processes for transferring climate science information to 
society and allow for informed decision making in the 
development of adaptation activities at federal, state, and 
local levels.
    I thank you for letting me have this opportunity today. I 
would be happy to answer questions subsequently.
    [The prepared statement of Mr. Karl follows:]

    [GRAPHIC] [TIFF OMITTED] T7818A.004
    
    [GRAPHIC] [TIFF OMITTED] T7818A.005
    
    [GRAPHIC] [TIFF OMITTED] T7818A.006
    
    [GRAPHIC] [TIFF OMITTED] T7818A.007
    
    [GRAPHIC] [TIFF OMITTED] T7818A.008
    
    [GRAPHIC] [TIFF OMITTED] T7818A.009
    
    [GRAPHIC] [TIFF OMITTED] T7818A.010
    
    [GRAPHIC] [TIFF OMITTED] T7818A.011
    
    [GRAPHIC] [TIFF OMITTED] T7818A.012
    
    Mr. Markey. We thank you, Mr. Karl. Our next witness is Mr. 
John Stephenson. He is the director for Natural Resources and 
Environment for the Government Accountability Office. Mr. 
Stephenson has appeared many times before this committee to 
provide GAO's perspective on energy and environmental issues. 
We welcome you back, sir.

                  STATEMENT OF JOHN STEPHENSON

    Mr. Stephenson. Thank you, Mr. Chairman, Mr. Upton, and 
members of the subcommittee. I am here today to give GAO's 
perspective on how the United States is adapting to actual and 
anticipated changes in the climate.
    Thus far, attention and resources have focused largely on 
emissions reduction options, climate science research, and 
technology investment. However, adaptation is beginning to 
receive more attention because the greenhouse gases already in 
the atmosphere are expected to continue altering the climate 
system regardless of efforts to control emissions.
    While it may be costly to build coastal dikes to protect 
community from sea level rise or to build higher bridges or to 
improve storm water systems, there is a growing recognition in 
the United States and elsewhere that the cost of inaction could 
be greater.
    My testimony addresses the actions federal, state, local 
and international authorities are currently taking to adapt to 
changing climate, the key challenges these officials are facing 
in their efforts to adapt, and the actions that Congress and 
federal agencies could take to help address these challenges.
    The information in my testimony is based largely on prior 
GAO work but also draws on our ongoing study for this 
subcommittee. In summary, we found that a variety of 
adaptation-related activities are underway at different levels 
of government including federal efforts like NOAA's to provide 
information and guidance to decision makers.
    In addition, federal resource management agencies like the 
Departments of Interior and Agriculture are beginning to 
consider climate change in their planning activities. We also 
found that certain state, local, and international governments 
are developing and implementing climate change adaptation 
plans.
    For example, we just completed a site visit exploring 
Maryland's strategy for reducing its vulnerability to climate 
change, focusing on sea level rise and coastal storms. We found 
that the state has completed an extensive mapping effort to 
identify coastal vulnerability and has begun educating coastal 
communities about changes that can be made to local ordinances 
to reduce coastal erosion and increase resilience.
    Specifically, Maryland provided guidance to three coastal 
counties, recommending changes to planning documents, building 
codes, and local laws to address the risk resulting from sea 
level rise. We attended a public meeting held within the county 
threatened by sea level rise and observed how difficult it was 
to come to a resolution about the costs and trade-offs 
associated with taking versus not taking adaptive measures.
    Several of our recent reports illustrate a number of 
challenges faced by government officials in attempting to 
address climate change adaptation. First, climate change is one 
of many priorities competing for their attention. Second, a 
lack of guidance can constrain the ability of officials to 
consider climate change in management and planning decisions. 
Third, insufficient site-specific information can reduce the 
ability of officials to manage the effects of climate change on 
the resources they oversee. And finally, officials are 
struggling to make decisions based on projected future climate 
scenarios rather than past conditions.
    On this last point, a recent report by the National 
Resource Counsel stated that decision makers are not prepared 
to manage or plan for adaptation because many of their usual 
practices assume a continuation of past climate conditions. 
According to the NRC, this assumption is no longer valid 
because climate change will create a new and constantly 
changing decision environment.
    Our own 2000 report on FEMA's national flood insurance 
program, which insures properties against flooding, and USDA's 
federal crop insurance corporation, which insures crops against 
drought or other weather disasters, reached similar 
conclusions. Both highlighted how historical information may no 
longer be a reliable guide for decision making. Unlike private 
sector insurers, neither federal insurance program had 
considered how climate change could affect their portfolios 
over the near or long term, potentially exposing the programs 
and taxpayers to greater financial risk.
    Our ongoing work for this committee will continue to 
explore these other adaptation issues and identify actions that 
can be taken to help move adaptation programs forward.
    To date, preliminary observations suggest a need for, one, 
improving coordination among federal agencies and with state 
and local governments; two, preparing a national adaptation 
strategy and better guidance; and three, developing regional 
and sector-specific information on the impacts of climate 
change.
    Some have also suggested the creation of a centralized 
government entity to collect and publicly share information 
about climate change impacts and adaptation strategies. We plan 
to continue to obtain information and perspectives from a broad 
range of federal, state, and local stakeholders, and later this 
year, issue a report to the committee on the results of our 
work. Mr. Chairman, that concludes my statement, and I will be 
happy to answer questions at the appropriate time.
    [The prepared statement of Mr. Stephenson follows:]

    [GRAPHIC] [TIFF OMITTED] T7818A.013
    
    [GRAPHIC] [TIFF OMITTED] T7818A.014
    
    [GRAPHIC] [TIFF OMITTED] T7818A.015
    
    [GRAPHIC] [TIFF OMITTED] T7818A.016
    
    [GRAPHIC] [TIFF OMITTED] T7818A.017
    
    [GRAPHIC] [TIFF OMITTED] T7818A.018
    
    [GRAPHIC] [TIFF OMITTED] T7818A.019
    
    [GRAPHIC] [TIFF OMITTED] T7818A.020
    
    [GRAPHIC] [TIFF OMITTED] T7818A.021
    
    [GRAPHIC] [TIFF OMITTED] T7818A.022
    
    [GRAPHIC] [TIFF OMITTED] T7818A.023
    
    [GRAPHIC] [TIFF OMITTED] T7818A.024
    
    [GRAPHIC] [TIFF OMITTED] T7818A.025
    
    [GRAPHIC] [TIFF OMITTED] T7818A.026
    
    Mr. Markey. And we thank you, Mr. Stephenson, very much. 
Our next witness is Mr. Larry Schweiger, who is the president 
and CEO of the National Wildlife Federation. Previously Mr. 
Schweiger served as president and CEO of the Western 
Pennsylvania Conservancy and as the first vice-president of the 
Chesapeake Bay Foundation. He currently chairs the Green Group, 
a coalition of environmental organizations. We welcome you 
back, and whenever you are ready, please begin.

                  STATEMENT OF LARRY SCHWEIGER

    Mr. Schweiger. Thank you, Mr. Chairman, and members of the 
subcommittee.
    Mr. Markey. Pull the microphone in just a little bit closer 
please.
    Mr. Schweiger. Yeah. America has been blessed with an 
abundance of natural resources. Born and raised as a hunter and 
angler, I can say that our unique wildlife heritage has helped 
define the traditions and values of my family and I know of 
many other American families for generations.
    Since the conservation leadership of President Theodore 
Roosevelt, millions of Americans have devoted themselves to 
protecting and restoring our country's natural resources. Now, 
because of unchecked global warming, a century of conservation 
achievement is in jeopardy.
    Today's hearing is essentially about whether Congress will 
ensure our children and their children are not left in a world 
that is fundamentally different from the one that we have 
enjoyed. I ask you, Mr. Chairman and subcommittee members, are 
you ready to talk about a world that no longer has polar bears, 
vast sagebrush depth, and free-roaming antelope, ice fishing, 
and deep snows in the water, cold water rivers teeming with 
salmon and trout? It is not an exaggeration to call what we are 
facing a climate crisis. In fact, the problem with the debate 
so far is that the climate change has consistently been 
underestimated. The conservative protections that have framed 
this story for many years are now being surpassed at a rate 
that has even shocked scientists closely monitoring the 
changes.
    Congress must enact a two-part agenda in its climate and 
energy legislation to adequately address the climate crisis. 
First, Congress must cap global warming pollution now and being 
steadily and rapidly reducing at a rate and pace dictated by 
the science and by the precautionary principles. Reducing 
carbon pollution in the atmosphere is the only way to head off 
the worst impacts of the climate change on people and on 
wildlife.
    Secondly, Congress must use revenues from the carbon cap 
program to carry out a program that is clean, green, and fair. 
Clean because we must invest in clean energy technologies to 
move to a new place in this country. Green because we must 
provide a large-scale dedicated funding to protect our nation's 
wildlife and other natural resources from climate change. And 
fair because we must protect consumers and particularly help 
those who are most vulnerable around the world.
    I want to emphasis if we cap carbon pollution but fail to 
invest adequately in natural resource protection, we will have 
accomplished only half of the job. Because we have already 
committed so much global warming pollution to the atmosphere, 
we will necessarily be grappling with the harmful impacts to 
wildlife for decades to come.
    National Wildlife Federation is working with scientists, 
resource managers, and a coalition of more than 700 hunting, 
fishing, and conservation organizations from every state in the 
nation to urge Congress to design climate legislation that 
conserves wildlife and other natural resources from the impacts 
of global warming.
    You will see from the attached to my written testimony a 
set of principles from the National Wildlife Federation and 19 
other national conservation and supporting organizations 
calling for large-scaled dedicated funding for natural resource 
adaptation and for identifying key legislative provisions to 
ensure that expenditures of such funding is science based and 
strategic.
    Also attached is a letter from 612 leading scientists, 
highlighting the urgency of the issue and also calling for 
large-scale dedicated funding to the purpose of adaptation. We 
are gratified to see President Obama pledge in his campaign to 
use dedicated funding from the climate legislation for natural 
resource adaptation. We are also pleased that our coalition's 
principles were largely reflected in the Climate Security Act, 
passed by the Senate Environmental Public Works Committee last 
year.
    Conservation practitioners have already started planning 
their natural resource adaptation efforts across the country, 
but planning will be wasted without the resources to put that 
program on the ground. Some have argued that funds for 
safeguarding natural resources should come from sources other 
than a cap program; however, the principle of pollute-or-pay 
must apply here. Any legislation that allows companies to pay 
to pollute must dedicate a portion of those payments to repair 
the current and future damages caused by that pollution.
    Mr. Chairman, the fourth report of the IPCC warns that in 
the lifetime of a child born today, 20 to 30 percent of the 
world's plant and animal species will be on the brink of 
extinction if we don't take action now. It makes it clear that 
unless we both cut carbon emissions and invest in adaptation, 
we could easily lose over a million species.
    To meet our fundamental ethical duty to pass on a healthy 
planet to future generations, we must reduce carbon pollution, 
and we must invest now in natural resource adaptation. We must 
protect the natural world that protects us and our children. 
Thank you.
    [The prepared statement of Mr. Schweiger follows:]

    [GRAPHIC] [TIFF OMITTED] T7818A.027
    
    [GRAPHIC] [TIFF OMITTED] T7818A.028
    
    [GRAPHIC] [TIFF OMITTED] T7818A.029
    
    [GRAPHIC] [TIFF OMITTED] T7818A.030
    
    [GRAPHIC] [TIFF OMITTED] T7818A.031
    
    [GRAPHIC] [TIFF OMITTED] T7818A.032
    
    [GRAPHIC] [TIFF OMITTED] T7818A.033
    
    [GRAPHIC] [TIFF OMITTED] T7818A.034
    
    [GRAPHIC] [TIFF OMITTED] T7818A.035
    
    [GRAPHIC] [TIFF OMITTED] T7818A.036
    
    [GRAPHIC] [TIFF OMITTED] T7818A.037
    
    [GRAPHIC] [TIFF OMITTED] T7818A.038
    
    [GRAPHIC] [TIFF OMITTED] T7818A.039
    
    [GRAPHIC] [TIFF OMITTED] T7818A.040
    
    [GRAPHIC] [TIFF OMITTED] T7818A.041
    
    [GRAPHIC] [TIFF OMITTED] T7818A.042
    
    [GRAPHIC] [TIFF OMITTED] T7818A.043
    
    [GRAPHIC] [TIFF OMITTED] T7818A.044
    
    [GRAPHIC] [TIFF OMITTED] T7818A.045
    
    [GRAPHIC] [TIFF OMITTED] T7818A.046
    
    [GRAPHIC] [TIFF OMITTED] T7818A.047
    
    [GRAPHIC] [TIFF OMITTED] T7818A.048
    
    [GRAPHIC] [TIFF OMITTED] T7818A.049
    
    [GRAPHIC] [TIFF OMITTED] T7818A.050
    
    [GRAPHIC] [TIFF OMITTED] T7818A.051
    
    [GRAPHIC] [TIFF OMITTED] T7818A.052
    
    [GRAPHIC] [TIFF OMITTED] T7818A.053
    
    [GRAPHIC] [TIFF OMITTED] T7818A.054
    
    [GRAPHIC] [TIFF OMITTED] T7818A.055
    
    [GRAPHIC] [TIFF OMITTED] T7818A.056
    
    [GRAPHIC] [TIFF OMITTED] T7818A.057
    
    [GRAPHIC] [TIFF OMITTED] T7818A.058
    
    [GRAPHIC] [TIFF OMITTED] T7818A.059
    
    [GRAPHIC] [TIFF OMITTED] T7818A.060
    
    [GRAPHIC] [TIFF OMITTED] T7818A.061
    
    [GRAPHIC] [TIFF OMITTED] T7818A.062
    
    [GRAPHIC] [TIFF OMITTED] T7818A.063
    
    [GRAPHIC] [TIFF OMITTED] T7818A.064
    
    [GRAPHIC] [TIFF OMITTED] T7818A.065
    
    [GRAPHIC] [TIFF OMITTED] T7818A.066
    
    [GRAPHIC] [TIFF OMITTED] T7818A.067
    
    [GRAPHIC] [TIFF OMITTED] T7818A.068
    
    [GRAPHIC] [TIFF OMITTED] T7818A.069
    
    [GRAPHIC] [TIFF OMITTED] T7818A.070
    
    [GRAPHIC] [TIFF OMITTED] T7818A.071
    
    [GRAPHIC] [TIFF OMITTED] T7818A.072
    
    [GRAPHIC] [TIFF OMITTED] T7818A.073
    
    [GRAPHIC] [TIFF OMITTED] T7818A.074
    
    [GRAPHIC] [TIFF OMITTED] T7818A.075
    
    [GRAPHIC] [TIFF OMITTED] T7818A.076
    
    [GRAPHIC] [TIFF OMITTED] T7818A.077
    
    [GRAPHIC] [TIFF OMITTED] T7818A.078
    
    [GRAPHIC] [TIFF OMITTED] T7818A.079
    
    [GRAPHIC] [TIFF OMITTED] T7818A.080
    
    [GRAPHIC] [TIFF OMITTED] T7818A.081
    
    Mr. Markey. Thank you, Mr. Schweiger, very much. Our next 
witness is Dr. Calvin Beisner, founder and national spokesman 
of the Cornwall Alliance for the Stewardship of Creation. Dr. 
Beisner also serves on the pastoral staff of Holy Trinity 
Presbyterian Church in Broward County, Florida. Thank you for 
being with us, Dr. Beisner.

                 STATEMENT OF E. CALVIN BEISNER

    Mr. Beisner. Thank you, Mr. Chairman, Mr. Upton, and 
members of the committee.
    Mr. Markey. Pull that microphone in just a little bit 
closer.
    Mr. Beisner. I have prepared a more extensive documented 
written testimony and submit it for the record. When the 
Apostle Paul wrote to the Galatians about meeting with the 
other apostles early in his ministry, he said, ``They only 
asked us to remember the poor, the very thing I also was eager 
to do.'' That has been my motivation for over 25 years of study 
and writing on developmental and environmental economics.
    Both the Old and the New Testaments insist that rulers 
protect the poor from harm, following the example of Yahweh, 
who Psalm 140:12 tells us ``will maintain the cause of the 
afflicted and justice for the poor.'' Yet often the very people 
who are responsible to protect the poor make laws that, whether 
intentionally or not, harm them.
    Climate change legislation may, I fear, be one such case. 
The naturalist atheistic worldview sees earth and all its 
ecosystems as the result of chance processes and therefore 
inherently unstable and fragile, vulnerable to enormous harm 
from tiny causes. The biblical worldview sees earth and its 
ecosystems as the effect of a wise God's creation and 
providential preservation and therefore robust, resilient, and 
self-regulating, thus preventing small perturbations from 
setting off a catastrophic cascade of reactions.
    Both this biblical worldview and high quality scientific 
empirical findings convince me that the fear of catastrophic 
manmade global warming is mistaken. And if so, fighting it is a 
waste. But even if not, fighting it may still be a mistake. The 
most thorough comparisons between the costs and benefits of 
temperature mitigation on the one hand and adaptation through 
economic growth on the other have concluded resoundingly that 
adaptation wins hands down.
    I am aware that the Stern Review argues that the costs of 
doing nothing will exceed those of fighting warming, but it 
reaches that conclusion by assuming, among other mistakes, a 
zero time discount rate to compare the values of present and 
future costs. If you doubt the buffoonery of that, see me 
afterward. I would like to borrow $1 million for 90 years at 
zero interest.
    What concerns me most is the impact of climate policy on 
the poor. If we tax CO<INF>2</INF> emissions, which, after all, 
enhance plant growth and so benefit all of life, if we tax 
them, whether directly or via cap-and-trade, we raise the price 
of energy and so the prices of all things made and transported 
by energy, which is essentially everything. This is 
particularly devastating to the poor, for whom energy 
constitutes a higher proportion of spending than for others.
    Forcing the poor in the developing world, as must be done 
if we seriously mean to stabilize CO<INF>2</INF>, to forego the 
use of carbon-based fuels, coal, oil, and natural gas, the 
cheapest fuels per kilowatt hour of energy delivered, means 
delaying by decades or generations the time when they can 
afford electricity for their homes and industries and thus 
delays for similar periods the time when they can refrigerate 
their food and so protect it from spoilage and themselves from 
under-nutrition for lack of food and diseases from spoiled 
food.
    When they can heat their homes with clean electricity 
rather than by open fires of wood and dry dung, the smoke from 
which causes respiratory diseases that reduce the amount of 
work they can do and so reduce their incomes and kill two to 
four million per year.
    When they can air condition their homes and so close 
windows and doors, keeping out insects that spread malaria, 
dengue fever, and other diseases that kill millions every year 
and disable scores to hundreds of millions.
    As Lomborg puts it, in the Third World, access to fossil 
fuels is crucial. About 1.6 billion people don't have access to 
electricity, which seriously impedes development. 2.5 billion 
people use biomass, such as wood, waste, and dung, to cook and 
keep warm. About 1.3 million people, mostly women and children, 
die each year due to heavy indoor air pollution. A switch from 
biomass to fossil fuels would dramatically improve 2.5 billion 
lives.
    Inexpensive fossil fuels contributed enormously to the 
economic development of the wealthy countries of the world. To 
demand that poor countries forego their use is to deprive them 
of that benefit and is, I insist, a grave injustice. It is the 
demand of wealthy powerful elites at the expense of the 
vulnerable poor.
    No alternative fuels can compete at present with fossil 
fuels for price. To compel their use in order to reduce 
CO<INF>2</INF> emissions is therefore to raise the price of 
energy and to harm the poor. Until someone can justify just a 
regressive tax with its fatal consequences, I can only conclude 
that it is unethical and that we are morally obligated not to 
impede access by the poor to abundant, inexpensive fossil 
fuels. Thank you.
    [The prepared statement of Mr. Beisner follows:]

    [GRAPHIC] [TIFF OMITTED] T7818A.082
    
    [GRAPHIC] [TIFF OMITTED] T7818A.083
    
    [GRAPHIC] [TIFF OMITTED] T7818A.084
    
    [GRAPHIC] [TIFF OMITTED] T7818A.085
    
    [GRAPHIC] [TIFF OMITTED] T7818A.086
    
    [GRAPHIC] [TIFF OMITTED] T7818A.087
    
    [GRAPHIC] [TIFF OMITTED] T7818A.088
    
    [GRAPHIC] [TIFF OMITTED] T7818A.089
    
    [GRAPHIC] [TIFF OMITTED] T7818A.090
    
    [GRAPHIC] [TIFF OMITTED] T7818A.091
    
    [GRAPHIC] [TIFF OMITTED] T7818A.092
    
    Mr. Markey. We thank you very much for being here. Our next 
witness is Lord Christopher Monckton. He is the Viscount of 
Brenchley. Lord Monckton is the chief policy advisor to the 
Science and Public Policy Institute. From 1982 to 1986, Lord 
Monckton served as a special advisor to Prime Minister Margaret 
Thatcher. Please proceed, Lord Monckton.

             STATEMENT OF LORD CHRISTOPHER MONCKTON

    Mr. Monckton. Sir, I bring fraternal greetings from the 
mother of Parliament to the great Congress of your athletic 
democracy, and I pray that God's blessing may rest upon your 
counsels.
    [Slide.]
    The right response to the non-problem of global warming is 
to have the courage to do nothing.
    [Slide.]
    Slide please. Thank you. There has been global cooling, as 
you see on that slide, for 7 years. The UN's climate panel has 
exaggerated carbon dioxide's effect on temperature sevenfold, 
verified by satellite observation--next slide please--that the 
diminution over time in outgoing long-wave radiation is one-
seventh of that which the UN's computer models were told to 
predict.
    [Slide.]
    Next slide please. Carbon dioxide is accumulating in the 
air at less than half the rate that the United Nations had 
imagined. This century we may warm the world by just half a 
Fahrenheit degree, if that.
    [Slide.]
    Next slide please. If doing nothing is inexpedient, 
adaptation to warmer or cooler weather, when and if necessary, 
is many times more cost effective than attempted mitigation.
    Adaptation to warmer weather is, of course, unnecessary 
unless the weather actually gets warmer. For 14 years, there 
has been no statistically significant global warming. Do not do 
or spend anything to mitigate or adapt to global warming until 
global temperature is two Fahrenheit degrees warmer than in 
2000. That may not happen for at least a century.
    We have been adapting to natural variations in climate 
throughout the history of humankind. Adaptation is a practical, 
affordable natural response to natural climate change. In the 
Middle Ages, it was warmer worldwide than today. Then global 
cooling set in. Our ancestors adapted. The Vikings abandoned 
their settlements in Greenland. Their graveyard in Hvalsey is 
under permafrost. It was frost free when they were buried.
    In Europe we adapted too. We moved to the valleys as the 
glaciers advanced, burying mountain roads, silver mines, and 
forests. Only now are all of these emerging once again. 
Adaptation therefore is at present unnecessary. Mitigation is 
always unnecessary. It is also disproportionately expensive as 
Dr. Beisner has rightly pointed out.
    In particular, the impoverishing regressive poll tax that 
is cap-and-trade has an ignominious past and no future. It has 
collapsed twice in Europe and once in New Zealand. If the 
United States adopts cap-and-trade, she may find herself doing 
so alone. Cap-and-trade will create green jobs by the thousands 
while destroying real jobs by the million at a cost of 
trillions. It is senseless. Green jobs are the new euphemism 
for mass unemployment.
    Cap-and-trade will perversely increase the global emissions 
it is intended to diminish. You will transfer your jobs, 
industries, and wealth to India and China. Their emissions per 
unit of production are far greater than your own. Protectionist 
tariffs, to try to prevent that, are the last resort of the 
economically illiterate and the politically desperate. Tariffs 
always damage those nations who impose them and they also flout 
your nation's obligations to the World Trade Organization. They 
are ultra vires.
    For proof of the economic damage caused by unilateral but 
futile attempts at influencing climate, see the galloping 
exodus from California. Everyone with any get-up-and-go is 
getting up and going. And unlike their robotic governor, they 
won't be back.
    Or see the food riots in a dozen of the world's poorest 
regions after the biofuels scam that arose directly from the 
global warming scare doubled food prices in 18 months. A third 
of your farmland no longer grows food for people who need it. 
It grows fuel for automobiles that don't.
    For us, dearer food is inconvenient. For starving millions 
worldwide, as Dr. Beisner has pointed out, it is death. Next 
slide please.
    [Slide.]
    In Haiti, the biofuel driven doubling of world food prices 
has forced the poorest to eat mud pies made with real mud. 
There is serious starvation going on around the world now, and 
this is directly--not as a result of global warming. There 
hasn't been any for 14 years--but as a result of policies 
intended to mitigate what does not need to be mitigated. You 
must apply the precautionary principle also to the precautions.
    [Slide.]
    And finally--next slide please--King Canute reminds his 
courtiers of the limitations of earthly power when the waves 
disobeyed his command not to wet the royal feet. You can no 
more command the forces of nature than could King Canute. For 
the sake of your taxpayers and the poor, whom their taxes 
support and defend, please don't try.
    [The prepared statement of Lord Monckton follows:]

    [GRAPHIC] [TIFF OMITTED] T7818A.093
    
    [GRAPHIC] [TIFF OMITTED] T7818A.094
    
    [GRAPHIC] [TIFF OMITTED] T7818A.095
    
    [GRAPHIC] [TIFF OMITTED] T7818A.096
    
    [GRAPHIC] [TIFF OMITTED] T7818A.097
    
    [GRAPHIC] [TIFF OMITTED] T7818A.098
    
    [GRAPHIC] [TIFF OMITTED] T7818A.099
    
    [GRAPHIC] [TIFF OMITTED] T7818A.100
    
    [GRAPHIC] [TIFF OMITTED] T7818A.101
    
    [GRAPHIC] [TIFF OMITTED] T7818A.102
    
    [GRAPHIC] [TIFF OMITTED] T7818A.103
    
    [GRAPHIC] [TIFF OMITTED] T7818A.104
    
    [GRAPHIC] [TIFF OMITTED] T7818A.105
    
    [GRAPHIC] [TIFF OMITTED] T7818A.106
    
    [GRAPHIC] [TIFF OMITTED] T7818A.107
    
    [GRAPHIC] [TIFF OMITTED] T7818A.108
    
    [GRAPHIC] [TIFF OMITTED] T7818A.109
    
    [GRAPHIC] [TIFF OMITTED] T7818A.110
    
    [GRAPHIC] [TIFF OMITTED] T7818A.111
    
    [GRAPHIC] [TIFF OMITTED] T7818A.112
    
    [GRAPHIC] [TIFF OMITTED] T7818A.113
    
    [GRAPHIC] [TIFF OMITTED] T7818A.114
    
    [GRAPHIC] [TIFF OMITTED] T7818A.115
    
    [GRAPHIC] [TIFF OMITTED] T7818A.116
    
    [GRAPHIC] [TIFF OMITTED] T7818A.117
    
    [GRAPHIC] [TIFF OMITTED] T7818A.118
    
    [GRAPHIC] [TIFF OMITTED] T7818A.119
    
    [GRAPHIC] [TIFF OMITTED] T7818A.120
    
    [GRAPHIC] [TIFF OMITTED] T7818A.121
    
    [GRAPHIC] [TIFF OMITTED] T7818A.122
    
    [GRAPHIC] [TIFF OMITTED] T7818A.123
    
    [GRAPHIC] [TIFF OMITTED] T7818A.124
    
    [GRAPHIC] [TIFF OMITTED] T7818A.125
    
    [GRAPHIC] [TIFF OMITTED] T7818A.126
    
    [GRAPHIC] [TIFF OMITTED] T7818A.127
    
    [GRAPHIC] [TIFF OMITTED] T7818A.128
    
    [GRAPHIC] [TIFF OMITTED] T7818A.129
    
    [GRAPHIC] [TIFF OMITTED] T7818A.130
    
    [GRAPHIC] [TIFF OMITTED] T7818A.131
    
    [GRAPHIC] [TIFF OMITTED] T7818A.132
    
    Mr. Markey. Good show, Lord Monckton. Very good show. Our 
next witness is Mr. David Waskow. Mr. Waskow is the climate 
change program director at Oxfam America. Before joining Oxfam, 
he worked for Friends of the Earth where he focused on a range 
of international, environmental, and development issues. We 
welcome you, sir.

                   STATEMENT OF DAVID WASKOW

    Mr. Waskow. Good morning. Thank you. Oxfam is an 
international development and humanitarian organization that 
works in more than 120 countries, including the United States, 
and I am here today because our staff and partners are already 
responding to the serious impacts of climate change, including 
heat waves, severe storms, sea level rise, and reduced water 
supplies.
    Both in the United States and abroad, we believe it has 
become essential to develop innovative and effective adaptation 
strategies for vulnerable communities. And, as I will note in a 
moment, we also believe these strategies are an opportunity for 
economic growth, both at home and abroad.
    We witnessed the reality of climate impacts firsthand in 
our operations in the Gulf Coast, responding to the aftermath 
of Hurricane Katrina. And although a particular weather-related 
event like Katrina cannot be specifically attributed to climate 
change, its impacts do stand as a tragic warning sign of the 
consequences if we fail to develop robust adaptation 
strategies.
    And let me just note for a moment here that I think our 
approach to climate change in general should be a proactive 
one, not reactive. And that is the case both in terms of 
reducing our emissions and also in doing adaptation, which is a 
matter of promoting resilience in a proactive manner.
    In the United States, low income and other vulnerable 
populations will be disproportionately affected by climate 
change, as has been noted earlier. According to the recent 
findings of the Federal U.S. Climate Change Science Program, 
many of the expected health effects are likely to fall heaviest 
on the poor, the elderly, the disabled, and the uninsured. 
Health waves and extreme weather events are but two examples of 
climate impacts that will disproportionately affect the low 
income and other vulnerable populations.
    As a first step to addressing these challenges in our 
country, the federal government should establish a national 
climate adaptation strategy, coordinate actions across 
agencies, and provide capacity building assistance to state and 
local governments. All of these climate adaptation strategies 
should prioritize and include the participation of vulnerable 
communities, including improving the management of emergency 
response strategies for those who are most vulnerable.
    Internationally, the capacity of vulnerable communities in 
developing countries is even more limited and is being 
stretched even further that is the case here in the United 
States. Agricultural practices, water systems, disaster 
preparedness, and health systems will all need to be 
strengthened and improved in order to be more climate 
resilient.
    In these countries, the consequences of climate change 
reach significantly beyond direct impacts of course. Stability 
and security will be undermined by climate change, and recently 
retired U.S. admirals and generals recommended that the U.S. 
take serious action to build climate resilience in those 
countries.
    Climate resilience, however, is not only a necessity both 
in the United States and around the world. It is also smart 
economically. Taking preventive action now will pay for itself 
many times over, and studies have shown that reducing disaster 
risk saves $4 for every dollar spent on disaster preparedness.
    Adaptation strategies are also a key economic opportunity 
that we should seize. Innovative solutions can be an integral 
part of a global transition to a clean and climate-resilient 
economy. From developing climate resilient buildings to 
buttresses sustainable transport systems to improving water 
systems and agricultural practices around the world, we can 
find substantial economic benefits from adaptation strategies.
    In the Gulf Coast, we have been involved with a promising 
example of climate resilient economic development building 
green, climate resilient housing. And we are seeing the 
development of new markets at home and abroad for technologies 
and services to help communities build resilience. Water pumps, 
infiltration devices, irrigation equipment, early warning 
systems for weather events, and weather index microinsurance.
    U.S. companies and workers are well poised to partner with 
communities at home and abroad in deploying these technologies 
and services. For example, Pent Air, a Minnesota-based company, 
manufactures pumps and filters for the entire water cycle and 
recently installed and maintained filtration systems in rural 
communities in India and Honduras.
    The development of new, clean energy technologies to 
support climate adaptation and resilience, both here and in 
developing countries, is another economic opportunity. And I 
would just take a moment to note that in many cases, off-grid 
renewable energy technologies are, in fact, the most cost 
effective, best way to provide energy sources to the poor in 
developing countries.
    Out of necessity, a wave of innovation is possible if we 
seize this opportunity to tackle climate adaptation and 
resilience that stands before us. So I encourage you to seize 
that opportunity. Thank you.
    [The prepared statement of Mr. Waskow follows:]

    [GRAPHIC] [TIFF OMITTED] T7818A.133
    
    [GRAPHIC] [TIFF OMITTED] T7818A.134
    
    [GRAPHIC] [TIFF OMITTED] T7818A.135
    
    [GRAPHIC] [TIFF OMITTED] T7818A.136
    
    [GRAPHIC] [TIFF OMITTED] T7818A.137
    
    [GRAPHIC] [TIFF OMITTED] T7818A.138
    
    [GRAPHIC] [TIFF OMITTED] T7818A.139
    
    [GRAPHIC] [TIFF OMITTED] T7818A.140
    
    [GRAPHIC] [TIFF OMITTED] T7818A.141
    
    [GRAPHIC] [TIFF OMITTED] T7818A.142
    
    Mr. Markey. Thank you so much, sir. And our final witness 
is Bishop Callon Holloway who was recently elected to his third 
term as bishop of the Southern Ohio Synod of the Evangelical 
Lutheran Church in America. Prior to that, he served as 
assistant to the bishop of the Southern Ohio Synod and pastor 
of the Western Lutheran Church in Dayton. Please begin whenever 
you feel comfortable, Bishop.

              STATEMENT OF BISHOP CALLON HOLLOWAY

    Bishop Holloway. Thank you very much. Good morning, 
Chairman Markey and Congressman Upton and members of the 
committee. I thank you for the opportunity to testify today, 
and I am with the Evangelical Lutheran Church in America and 
also representing the National Counsel of Churches. Between 
them, the five million members of the ELCA and 45 million in 
the National Counsel of Churches, I speak in their behalf.
    I am delighted to have the opportunity to speak from the 
perspective of those of us involved in the faith community as 
we are called and to speak with you about global climate 
change, particularly our concern for those who are living in 
poverty around the world and here who are already facing the 
impacts of this climatic change.
    For many people of faith, the call to be good stewards of 
the earth is grounded in God's command in Genesis to keep and 
to till the earth. Christians look to Christ's example and heed 
the call to seek justice, care for our neighbor, and provide 
for those who are living in poverty or are otherwise 
suppressed. And our response to climate change must reflect the 
principles of stewardship and justice. Particularly for those 
who are living in poverty around the world, they are the ones 
who are least responsible for the changes taking place and most 
likely to suffer from its impact.
    The diverse coalition of faith communities including 
Catholics, Protestants, evangelicals, and our inter-faith 
partners have endorsed the climate fairness agenda, which 
unites our communities behind the goal of working to ensure 
that the United States government aggressively reduces 
greenhouse and gas emissions while providing for the most 
vulnerable here in our own country and around the world.
    And I would like to submit to you for the record a document 
``Climate Fairness Agenda: A Religious Call to Address Global 
Climate Change and Poverty.''
    Mr. Markey. We will include that in the record without 
objection.
    Bishop Holloway. Thank you very much, sir. In its 2007 
assessment reports, the Intergovernmental Panel on Climate 
Change, the IPCC, paints a pretty bleak picture of God's 
creation and those already struggling with hunger and disease. 
The report details how climate change will increase insecurity 
in places where food is already scarce while reversing progress 
made to fight against hunger in other regions. Rising 
temperatures will increase water scarcity and some areas and 
spread of disease, such as malaria, fever, West Nile virus.
    More severe natural disasters and longer-term drought will 
lead to increased migration. I have seen this with my own eyes 
and worked with those who are working with the people who are 
most affected by this. I have been privileged to see this in my 
own church and our response to global climate change, through 
my own synod's companionships in Tanzania, Brazil, and also in 
Kazakhstan most recently.
    And I have met with farmers who are struggling with extreme 
weather pattern changes and unpredictable rainfalls, and our 
people are working hard, fast, furiously, and in partnership 
with great numbers and diversity of other people and 
organizations to provide basic water supply, cleanliness, and 
opportunities to eat.
    For us, we are blessed in our country with waking in the 
morning and deciding what color tie to wear or what color iPod 
to have having from our sides while most people around the 
world deciding if they are going to eat that day. Although 
churches and other NGOs are already working to assist 
communities adapting to climate change, the reality is that the 
changes are far too great for us to manage alone. We cannot do 
that alone. We are not structured for it. It is not our primary 
calling.
    A number of proposed bills in the House during the 110th 
Session including, Chairman Markey, your recommendations with 
the iCAP bill and Counselman Doggett's Climate MATTERS bill and 
the Boxer/Warner/Lieberman bill in the Senate include an 
international adaptation assistance language and funding.
    There are several items I would like to get to in this 
report. That funds should be appropriately targeted in terms of 
recipient countries by 10 percent. Local communities must be 
engaged in a participatory process through transparent 
mechanisms, and funds should be provided to fund the current 
levels of official development assistance. The funds should be 
targeted for climate impact, and legislation should enhance 
developing country efforts to reduce greenhouse gas emissions.
    The U.S. must acknowledge its role, both claimed and 
granted, in the responsibility for this global crisis and 
should commit to providing substantial financial support 
reaching between $7 and $21.5 billion a year by 2030.
    Some will say we cannot afford to make this sort of 
investment at a time of global economic turmoil. I counter that 
if we do not do it, we cannot afford that either. I thank you 
very much as we look to protect creation and God's people.
    [The prepared statement of Bishop Holloway follows:]

    [GRAPHIC] [TIFF OMITTED] T7818A.143
    
    [GRAPHIC] [TIFF OMITTED] T7818A.144
    
    [GRAPHIC] [TIFF OMITTED] T7818A.145
    
    [GRAPHIC] [TIFF OMITTED] T7818A.146
    
    [GRAPHIC] [TIFF OMITTED] T7818A.147
    
    [GRAPHIC] [TIFF OMITTED] T7818A.148
    
    [GRAPHIC] [TIFF OMITTED] T7818A.149
    
    [GRAPHIC] [TIFF OMITTED] T7818A.150
    
    [GRAPHIC] [TIFF OMITTED] T7818A.151
    
    [GRAPHIC] [TIFF OMITTED] T7818A.152
    
    [GRAPHIC] [TIFF OMITTED] T7818A.153
    
    [GRAPHIC] [TIFF OMITTED] T7818A.154
    
    [GRAPHIC] [TIFF OMITTED] T7818A.155
    
    [GRAPHIC] [TIFF OMITTED] T7818A.156
    
    [GRAPHIC] [TIFF OMITTED] T7818A.157
    
    [GRAPHIC] [TIFF OMITTED] T7818A.158
    
    [GRAPHIC] [TIFF OMITTED] T7818A.159
    
    [GRAPHIC] [TIFF OMITTED] T7818A.160
    
    [GRAPHIC] [TIFF OMITTED] T7818A.161
    
    [GRAPHIC] [TIFF OMITTED] T7818A.162
    
    [GRAPHIC] [TIFF OMITTED] T7818A.163
    
    [GRAPHIC] [TIFF OMITTED] T7818A.164
    
    [GRAPHIC] [TIFF OMITTED] T7818A.165
    
    [GRAPHIC] [TIFF OMITTED] T7818A.166
    
    [GRAPHIC] [TIFF OMITTED] T7818A.167
    
    [GRAPHIC] [TIFF OMITTED] T7818A.168
    
    [GRAPHIC] [TIFF OMITTED] T7818A.169
    
    [GRAPHIC] [TIFF OMITTED] T7818A.170
    
    [GRAPHIC] [TIFF OMITTED] T7818A.171
    
    [GRAPHIC] [TIFF OMITTED] T7818A.172
    
    [GRAPHIC] [TIFF OMITTED] T7818A.173
    
    [GRAPHIC] [TIFF OMITTED] T7818A.174
    
    [GRAPHIC] [TIFF OMITTED] T7818A.175
    
    [GRAPHIC] [TIFF OMITTED] T7818A.176
    
    [GRAPHIC] [TIFF OMITTED] T7818A.177
    
    [GRAPHIC] [TIFF OMITTED] T7818A.178
    
    [GRAPHIC] [TIFF OMITTED] T7818A.179
    
    [GRAPHIC] [TIFF OMITTED] T7818A.180
    
    [GRAPHIC] [TIFF OMITTED] T7818A.181
    
    [GRAPHIC] [TIFF OMITTED] T7818A.182
    
    [GRAPHIC] [TIFF OMITTED] T7818A.183
    
    [GRAPHIC] [TIFF OMITTED] T7818A.184
    
    [GRAPHIC] [TIFF OMITTED] T7818A.185
    
    [GRAPHIC] [TIFF OMITTED] T7818A.186
    
    [GRAPHIC] [TIFF OMITTED] T7818A.187
    
    [GRAPHIC] [TIFF OMITTED] T7818A.188
    
    [GRAPHIC] [TIFF OMITTED] T7818A.189
    
    [GRAPHIC] [TIFF OMITTED] T7818A.190
    
    [GRAPHIC] [TIFF OMITTED] T7818A.191
    
    [GRAPHIC] [TIFF OMITTED] T7818A.192
    
    Mr. Markey. Thank you, Bishop Holloway and to the other six 
witnesses. Watching you go one minute over, I went to religious 
school every day from age 6 to 26, 20 years in a row, and I 
don't have it within me to tell anyone wearing a collar when to 
stop. Okay, so I am disciplined that way. So I apologize to the 
other witnesses, but I was gripped by the admonitions of those 
20 years every day, religious school. The gentleman from Texas.
    Mr. Burgess. Mr. Chairman, would you yield for a question?
    Mr. Markey. I will be glad to yield.
    Mr. Burgess. May I inquire as to whether or not this 
hearing is being covered on one of the C-SPAN channels?
    Mr. Markey. You mean one of the internal House channels.
    Mr. Burgess. No, one of the broadcast channels so people 
could--we have an incredible panel of witnesses and----
    Mr. Markey. It is not being covered, but that is not our 
decision. That is a decision that is made by C-SPAN or by the 
internal House----
    Mr. Burgess. But none of your gripping hearings have been 
covered on any broadcast television. I think that is a mistake, 
just to watch the body language of Lord Monckton while Mr. 
Waskow was testifying, and vice versa, I think would have been 
worth the price of admission for our C-SPAN audience. And I 
regret that my constituents aren't able to tune in.
    Mr. Markey. I am with you. We don't have to go to 
Piccadilly. Piccadilly comes to us, you know, and I am very, 
you know, honored that we have all these people. But again it 
is not within our control, okay. The cameras are there. They 
are working if anyone wants to pick it up, it is their 
decision, not our decision at all. And I--for my purpose, we 
are better off having this full discussion. I would have wanted 
everyone to have just heard Bishop Holloway tell us what our 
moral obligations our, but it is not my decision.
    Mr. Burgess. Well, just for the record, Mr. Chairman, you 
are infinitely more interesting than a budgetary hearing. And I 
will yield back.
    Mr. Markey. I thank the gentleman, I think. The chair will 
recognize himself for a round of questions. I am going to go to 
you, Dr. Karl, and relate back to Lord Monckton. Can you tell 
me based upon 150 years of data from the World Meteorological 
Association and extensive analysis of public data by 
governments around the world, including the United States 
government, is the Earth cooling in the long term, or is it 
warming as a result of human activity?
    Mr. Karl. I can make this answer very short, Chairman. 
There is no question the Earth is warming. Out of the last 14 
years, 13 of them have been the warmest in our recorded history 
in terms of----
    Mr. Markey. Can you say that again please?
    Mr. Karl. Of the last 14 years, 13 have been the warmest on 
record in our observed climate record case.
    Mr. Markey. So when Lord Monckton goes back to 1998 and he 
says since then we have been on a cooling trend, is it a little 
bit like saying well, you know, Babe Ruth, you know, when he 
started hitting his home runs, there had never been any more 
than 20, and when he hit 60 in 1927, there was a decline after 
that? Looking, of course, at Hank Greenburg's 58, Hack Wilson's 
56, Jimmy Fox's 58, so it was kind of a downward trend because 
no one could quite match Babe Ruth. On the other hand, Babe 
Ruth had just completely eclipsed anything that had existed 
before that? Isn't that a little bit like what Lord Monckton is 
doing here in saying there has been a decline from 1998, 
without reflecting upon the fact that, as you pointed out, can 
you give me that number again?
    Mr. Karl. Of the last 14 years, 13 have been the warmest on 
record going back on----
    Mr. Markey. The warmest on record. Thank you. So there is a 
little bit of disengenuineness in Lord Monckton's testimony, 
and I think that the incompleteness historically in his 
testimony is something that doesn't serve the committee really 
that well because it is these longer-term trends that are at 
much higher levels by a significant amount in terms of their 
warming impact that is of great concern and why the United 
Nations put together that group of 3,000 scientists, to reflect 
upon that and to make recommendations to the world and to the 
United States.
    Mr. Schweiger, could you reflect upon what Mr. Karl just 
pointed out?
    Mr. Schweiger. One of the ways to think about this is to 
think about what is happening to the Earth. And if you look at 
what is going on in the Arctic Region, the melt of the Arctic 
is setting all sorts of new records. The thing that concerns me 
most is this carbon storage that we find in the Arctic Region 
is now being given off at, I think, quite significant rates.
    The leakage of methane, the Boreal Forest in Canada, for 
example, are going to be giving off more carbon in the next 10 
years than they are going to be storing. Nine of the next 10 
years are going to be net producers of carbon. So as the Earth 
warms, it begins to behave in ways that are very troubling.
    So I would suggest to us that we are in a second phase of 
global warming, that phase where humans are not only 
contributing, but we are now seeing nature giving back some of 
its carbon stores. And I would ask the committee to pay close 
attention to that.
    Mr. Markey. Thank you, Mr. Schweiger, very much. Dr. Karl, 
the legislation I introduced last year, it established the 
national climate service. Does the administrator of NOAA 
support a climate service? And could you distinguish between 
what a weather service and a climate service would provide in 
terms of information for ourselves and for the rest of the 
world?
    Mr. Karl. Yes, in fact, Administrator Lojanko has made it 
clear during her testimony for her confirmation hearing that 
she does support the development of a national climate service, 
similar scope as compared to a national weather service. The 
differences between a climate service and a weather service is 
that a climate service would be focusing on aspects of climate 
change mitigation and adaptation, as we are discussing here 
today, delivering products and services in that respect.
    I have often been asked the question about well, would the 
weather service and climate service, would there be a 
demarcation between what time scale a weather service addresses 
and a climate services addresses? And I think the way to think 
about this is that obviously a weather is going to continue to 
protect us, get us out of harm's way, protect life and 
property, forecasting the kind of weather events that occur in 
a real-time basis. But as Congressman Baldwin pointed out, when 
we have floods like we had last year, we want to be able to 
better understand whether there are anthropogenic influences 
that may be causing such floods. And so a climate service would 
want to be there helping to explain those conditions, intense 
and severe hurricane seasons are the contributions that humans 
may be adding to those kinds of events. So that is the best I 
could do in terms of helping to describe the differences.
    Mr. Markey. Thank you, Dr. Karl, very much. Chair 
recognizes the gentleman from Michigan, Mr. Upton.
    Mr. Upton. Thank you, Mr. Chairman. I think Lord Monckton 
wanted to have a say in that first question you posed. So Lord 
Monckton?
    Mr. Monckton. Certainly, sir. Yes, I do. If you want it put 
in perspective, let us put it in perspective. Let us go back 
600 million years to the Cambrian Era. Yes, I remember it well.
    Mr. Upton. Just for the record, that, I think is when the 
Chicago Cubs last won the title. I don't know if you know 
baseball as well, sir.
    Mr. Monckton. I will ride with that. Certainly 600 million 
years ago, there was about 20 times as much carbon dioxide in 
the atmosphere as there is today, and global temperature was 
about 12.5 Fahrenheit degrees warmer than today. That is how 
much extra carbon dioxide you have to put in the atmosphere to 
get that kind of increase. And for most of the last 600 million 
years, it has been around 12.5 degrees warmer than today 
Fahrenheit.
    However, if we come more recently to the last 10,000 years 
since the end of the last Ice Age, for most of the last 10,000 
years, it has been around 4 or 5 Fahrenheit degrees warmer than 
today. Most recently in the Minoin and Roman and Medieval warm 
periods, it was warmer than today.
    There was then a period of considerable cooling. Indeed the 
sun, between 1645 and 1715 was at its lowest level of activity 
in 10,000 years according to sunspot records. Now, thereafter 
the sun's activity gradually increased until, in the last 70 
years of the 20th Century, it reached, what is known to solar 
physicists, as a solar grand maximum. That coincided with a 
considerable period of warming.
    However, the warming period of 1975 to 1998 when it 
stopped, there was no greater warming rate then than there was 
between 1860 and 1880 and again between 1910 and 1940. There is 
therefore no anthropogenic signal whatsoever in the temperature 
record so far. The IPCC has predicted global warming, and yet 
for the last seven years, there has been global cooling. Now, 
that global cooling is, of course, a consequence of natural 
variability just as very nearly all of the global warming of 
the 300 years that preceded it is, on any view, also 
attributable to natural climate variability. There is, 
therefore, nothing in the temperature record that should give 
us any cause of concern to day.
    Mr. Upton. Thank you. Mr. Karl, I regret that I didn't 
bring this publication, but I read a story just this week it 
was made public. The Chinese apparently had indicated that they 
had not--they didn't have any more recent data than, I believe, 
1994 in terms of specific emissions within their country. And I 
think South America or was it Brazil was close to the same. How 
do we actually monitor what other nations are doing?
    One of the concerns that a good number of us have is if we 
imposed a cap-and-trade scheme that particularly countries like 
China and India would welcome that because they would see that 
job growth be exported from the U.S. to those countries. And as 
we have seen with China building a new coal plant literally two 
every single week, how is it that we are going to actually 
monitor the emissions from those nations when, in fact, they 
are at least, as we saw this week, putting up their hands and 
saying it is not any of your business? What type of tools do we 
have?
    Mr. Karl. Yeah, right now, NOAA has something called a 
carbon tracker program. You can actually go on the web and take 
a look at our best estimates as to how carbon is being moved 
around the world. And this is actually into the atmosphere. We 
actually have observatories in the North Pole, Barro, and 
several other locations. We have a global monitoring network. 
We collect flask samples from across the world to try and 
measure atmospheric concentrations.
    This kind of information is used in models, and there are 
some technical methods that are used to try and go back to the 
sources. And we actually measure the amount of carbon in the 
atmosphere so we can better understand where they are actually 
being emitted and being absorbed.
    It is an area in which NOAA is very interested and continue 
to improve our capabilities here, and we have actually put 
forth a number of proposals.
    Mr. Upton. Did you see the report that was put out this 
week by the Chinese?
    Mr. Karl. No, I have not.
    Mr. Upton. We will get it, and I would like you to maybe 
comment in writing. We will get it to you and do that. I see my 
time has expired. I yield back.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentlelady from--I am sorry. The chair 
recognizes the gentleman from Michigan. I have an obstructed 
view seat here. The chair recognizes the gentleman from 
Michigan, Mr. Dingell. Mr. Dingell, if you could--okay, thank 
you.
    Mr. Dingell. Last year, Mr. Boucher and I introduced or 
rather released a draft which we addressed the question of 
using some of the resources generated by the cap-and-trade to 
see to it that we could use these allowances for safeguarding 
wildlife natural resources from the effects of climate change. 
We also have the intention of seeing to it that we would 
preserve wetlands, marshes, mountains, forests, grasslands and 
things of that kind. Have you seen that draft?
    Mr. Schweiger. Yes, I have, sir, and I wanted to thank both 
of you for that sponsorship.
    Mr. Dingell. Do you support that?
    Mr. Schweiger. We do support that.
    Mr. Dingell. Natural wildlife does?
    Mr. Schweiger. And a number of other organizations that are 
signed on to our statement also support that effort. We believe 
that it is important to take some of the revenues that are 
generated from a cap and invest program and apply them to 
protect these vital resources. The number that was in the 
Senate Environment and Public Works Committee last year is a 
good number, I think, to start with for our efforts going 
forward. But we clearly think the wildlife need funding, that 
adaptation needs to be implemented. There are plans that are 
beginning to be developed. Much more needs to be done across 
the entire country in fact.
    Mr. Dingell. Would you equate this with adaptation, the 
language that Mr. Boucher and I have released? Would you equate 
that with adaptation in a good form?
    Mr. Schweiger. Absolutely.
    Mr. Dingell. Very good. Given the extensive conservation 
investments that we have made in the Congress, going back to 
Pip and Robertson, Dingell, Johnson, and all of the other 
programs of this kind, how much risk is there that these 
investments could be squandered if we fail to invest now in 
natural resource adaptation?
    Mr. Schweiger. One example of the risk that we face, there 
was a recent assessment of the National Wildlife refugees, and 
over 60 percent of those refugees that were studied will be out 
of their biome if we continue to--on the course that we are on 
today. So what that means is the natural diversity that existed 
on those refugees will no longer be able to survive in the 
warming climate in those locations. So there is a great urgency 
to help in that transition.
    Mr. Dingell. Thank you. Now, going across, starting with 
you, Bishop Holloway, if you please. Do you support the idea of 
adaptation?
    Bishop Holloway. Absolutely.
    Mr. Dingell. Next witness, do you? Yes or no?
    Mr. Waskow. Yes.
    Mr. Dingell. Next witness please.
    Mr. Monckton. Sir, if you must do anything, then adapt. 
That is what we have been doing since we were created. I am 
sure we will continue just fine, and we probably don't need 
Congress to help us.
    Mr. Dingell. Thank you. Sir?
    Mr. Beisner. Yes, adaptation is the natural human action 
and response to all changes around us. We have done that for 
thousands of years, and I think we will continue to do that 
very well with or without central planning.
    Mr. Dingell. Does that mean yes or no?
    Mr. Beisner. Yes.
    Mr. Dingell. Mr. Schweiger, I believe you've already been. 
Next witness?
    Mr. Stephenson. Yes.
    Mr. Dingell. Final witness, sir?
    Mr. Karl. Yes, and if I could just add, if I may, one of 
the real challenges for adaptation will be for us to be able to 
provide the kinds of climate-related information that will be 
necessary because the climate will be constantly evolving and 
changing. And developing those information transfers between 
what we understand the science and the engineering practices 
that are so important to put in place for adaptation, there 
will be a key linkage that I think we will have to ensure that 
we do a better job in developing.
    Mr. Dingell. Thank you. Now, I have another question here 
for you, sir. I am curious, and I want you with your expertise 
as a member of the GAO, how are we--we are going to generate 
enormous sums of money from the sale of these allowances.
    How are we going to keep those sales honest? We are 
obviously going to have to have lots of inspector generals. We 
are obviously going to have lots and lots of responsibilities 
imposed upon these people. We are obviously going to have to 
have questions with regard to how we handle the accounting. Can 
you give me a quick and dirty answer as to how we are going to 
address this problem of keeping honest men, or maybe somewhat 
dishonest men, honest given the huge temptations we are going 
to lay before them?
    Mr. Stephenson. Well, this is part of the details of a cap-
and-trade program, and whether or not you use offsets or not as 
a cost containment mechanism. Both of those features require 
emissions, not certainty but certainly good estimating 
techniques and verification techniques to ensure that the 
baseline emissions are correct. Then we are proponents of an 
auction rather than allocation of the allowances to make sure 
that the price of carbon is set correctly.
    We think carbon offsets is a form of cost containment, but 
it too has a lot of problems in verifying that the additional 
carbon offsets you would get would be additional. That means it 
would not have occurred anyway. So the devil is in the details 
for all of this legislation. There is much to do to determine 
what techniques should be used to estimate allowances, to 
verify allowances, and to manage a cap-and-trade program if 
that is the way we go.
    Mr. Dingell. Thank you, Mr. Chairman. You are very 
generous.
    Mr. Inslee. [presiding]. Mr. Barton from Texas.
    Mr. Barton. Thank you, Mr. Chairman. Again I want to thank 
all of our witnesses. I really appreciate you all being here. I 
am going to focus on two of our witnesses, Mr. Karl and Lord 
Monckton, on some of the science.
    Mr. Karl, you are a climatologist. Is that not correct?
    Mr. Karl. That is correct.
    Mr. Barton. And you are part of the scientific panel of the 
IPCC?
    Mr. Karl. I was lead author and convening lead author on 
the first three IPCC reports and review editor on the last.
    Mr. Barton. So we could consider you an expert. You 
wouldn't disallow that descriptive?
    Mr. Karl. You could consider me anything you would like, 
sir.
    Mr. Barton. Well, I think you are an expert. Now, Lord 
Monckton presented the committee three charts. One is a chart 
from the Hadley and NCDC monthly terrestrial global temperature 
data set and the RSS and UAH satellite lower-troposphere data 
sets that shows a global cooling over the last seven years of 
about, if I read it correctly, equivalent to 3.5 degrees 
Fahrenheit a century. Is he lying to us?
    Mr. Karl. Well, that is a very unusual way of presenting 
data that has never, in the IPCC, been combined in that way. 
Let me give you an example why.
    Mr. Barton. But I mean is the data that he presents it 
factual?
    Mr. Karl. I can't attest to the figure you showed on the 
figure so quickly. I looked at it for----
    Mr. Barton. Well, will do you that? Will you research it 
and send a report to the committee whether he is lying to us or 
telling us the truth?
    Mr. Karl. I certainly will. I can tell you that when IPCC 
does detection attribution studies, one of the key issues that 
we look at is the change in the rate of temperature throughout 
the atmosphere, and that figure--actually average temperatures 
at the surface with temperatures throughout the troposphere, 
which is not the way we go about doing fingerprint 
attributions. So that was quite unusual, and I noticed that 
right off.
    Mr. Barton. Okay, but it is theoretically possible he is 
telling the truth or this chart is factually correct?
    Mr. Karl. I will reserve judgment. When you send it to me, 
we will take a look at it.
    Mr. Barton. And give us an honest assessment?
    Mr. Karl. Best we can do.
    Mr. Barton. Now, his other chart shows that--the headline 
is ``The UN exaggerates the greenhouse effect by sevenfold.'' 
Are you familiar with that graph, and is that another case of 
creative graphing, or is that the truth?
    Mr. Karl. If I remember, this is the figure that was 
showing the rates of carbon emissions? Is that----
    Mr. Barton. Fourteen years of model-predicted (black) and 
ERBE satellite-observed (red)----
    Mr. Karl. Okay.
    Mr. Barton [continuing]. Change in outgoing long-wave 
radiation from the earth's surface.
    Mr. Karl. Yeah, in fact, last week, Chairman Mullhan's 
committee had a hearing on climate data records, and that 
graph--one of the important aspects of when you show earth 
radiation budget data, you have to take into account the fact 
that these measurements are made from satellites that change 
their orbit over time and from different satellites. And one 
has to stitch together the climate record from those 
satellites.
    Mr. Barton. Can you look at this one also?
    Mr. Karl. Yeah, it is incorrect. I can tell you off--right 
away.
    Mr. Barton. You just say this one is wrong?
    Mr. Karl. I can--because I saw that immediately. That is 
incorrect because it has----
    Mr. Barton. And what about his last chart that shows 
CO<INF>2</INF> concentrations are rising below their 
prediction, that the IPCC keeps saying these huge increases are 
going to--in CO<INF>2</INF> and it just doesn't appear that 
factually that can be verified by actual data collection. What 
is the story about that?
    Mr. Karl. Yeah, I was quite surprised to see that graph 
because right now, there is a unified synthesis product the 
Climate Change Science Program has put together, and it has 
just gone through its second round of public review comments. 
And we hope to have it cleared through the agencies, the 
Climate Change Science Program agencies in the next few months. 
But if you look at that document today, there is actually a 
graph in there showing the rates of the missions over the past 
15 years. If you look around, compare it to IPCC scenarios----
    Mr. Barton. I am about to run out of time, and I want to 
give Dr. Monckton--Lord Monckton a chance to----
    Mr. Karl. The bottom line is what our concern is the rates 
of global emissions are faster than what some of the IPCC 
emission scenarios suggest today.
    Mr. Barton. Lord Monckton, he basically says you are a 
liar. What is your----
    Mr. Monckton. If you concentrate on emissions, then he is 
right. Emissions are rising faster than the IPCC predicted 
because they didn't expect China to do what China said she 
would do and continued to build power stations at a rate of one 
a week burning coal. However, concentration remaining in the 
atmosphere has indeed fallen, and the reason why is--it hasn't 
fallen, but it has gone up much slower than the emissions have 
and much below what is forecast. And the reason why that is is 
that, as the UN itself admits in its documents, it is incapable 
of adding up what is called the carbon budget in and out of the 
atmosphere to within a factor of two of the right answer.
    Mr. Barton. Well, Lord, just as I have asked Mr. Karl to 
try to verify what he said for the committee's consideration, 
could you also attempt to give some supporting documentation to 
prove that your charts, sir, are accurate and factual?
    Mr. Monckton. Certainly. I would be happy to supply a paper 
which is currently out for peer review, which explains exactly 
how these two graphs are compiled. The third graph is from a 
scientific paper, one of a series that has appeared in the 
literature on this question of the outgoing long-wave radiation 
not diminishing as fast as the UN's models predicted it would. 
And I will give you the references to various papers on that 
subject.
    Mr. Barton. Thank you, sir. Thank you, Lord. Thank you, Mr. 
Chairman.
    Mr. Inslee. The lady from California, Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman. I would like to shift 
a while here to get to--from a global level to so-called ground 
level in my community.
    Millions of people in my state depend upon levees to 
protect them, and climate change will increase the state's 
flood risk by causing a shift toward more intense winter 
storms, which could produce higher peat flows. Flood systems 
throughout the state must be upgraded and managed to 
accommodate the higher variability of flood flows to protect 
public safety, the economy, and ecosystems. And this is not 
cheap.
    In 2007, Sacramento property owners voted to assess 
themselves almost $300 million for their local match to help 
achieve 200-year flood protection in the Sacramento area. 
Shortly thereafter, the state legislature passed legislation 
authorizing the state to participate in the 200-year flood 
protection program and contribute 70 percent of the non-federal 
cost of the program.
    In 2008, our flood control agency established a development 
fee program to add to local funding available for the 200-year 
program. Now, Mr. Schweiger, as you can see, my community has 
taken it upon themselves to be leaders in adaptation and water 
management. However, Sacramento's risk of flooding remains 
high, and we need additional help. In your testimony, you 
reference a lot of communities and their efforts to adapt. What 
are other communities doing to help prevent flooding and how 
are they raising the necessary funding?
    Mr. Schweiger. A number of groups are working, and I will 
give you one example. In coastal Louisiana, to reestablish some 
of the damaged wetland systems in the North Orleans areas, 
because we believe that by building back this natural 
resistance, we will reduce the storm surges, and we will also 
provide protection for nearby communities. So we think that 
there is an important investment in that area.
    I would also suggest that the Army Corps of Engineers needs 
to change the way they do their planning and look forward and 
not look backwards. You know we have been designing structures 
to look at the last hundred years, and I think it is important 
that Congress give the Corps direction to look forward and 
understand the modeling and how it might impact communities.
    I think that there are many community risks involved in 
climate change, and there are also enormous wildlife risk. Some 
of your fishery resources, for example, in California are being 
lost as coastal areas are being lost due to sea level rise and 
port wetland systems are disappearing.
    Ms. Matsui. And in your opinion, what percentage should the 
federal government contribute to adaptation versus states and 
communities? And, you know, we are looking for financing. What 
are the types of financing we should look to in tough economic 
times?
    Mr. Schweiger. The Senate Environment Public Works 
Committee last year had identified a $7 billion annual average 
funding for the first two decades for the climate adaptation 
funding for wildlife. And if you look at that, that is about 1 
percent of the economic benefits from outdoor recreation forest 
and wetland conservations.
    So we think that is a reasonable starting point for those 
kinds of investments, and I should say that there is also a 
number of other important community investments that need to be 
made. And some of those are, in fact, overlapping because what 
benefits humans also benefit wildlife in certain cases.
    Ms. Matsui. Okay, thank you. Mr. Stephenson, I understand 
the GAO is still analyzing adaptation efforts as you complete 
your study this year. Based on what you have uncovered, have 
you seen examples of adaptation efforts relating to flood 
control?
    Mr. Stephenson. Yeah, the one I mentioned in Maryland. We 
just visited the state of Maryland and are looking at their 
efforts to address sea level rise. And at this point, it is 
more one of providing information to counties subject to sea 
level rise and advising what they can do in their laws and 
their land management use plans to address those problems. They 
are going to have to make economic decisions in the future as 
to what kind of adaptive measures they may want to take.
    Ms. Matsui. What is the federal government doing to better 
understand the flood risk and hydrologic impacts of a changing 
planet?
    Mr. Stephenson. Well, there are many research efforts both 
by the federal government and others, both in the U.S. and 
throughout the world on this issue. What we are suggesting is 
that there needs to be more regional and localized information 
so that individual communities and governments can make 
decisions on what they should or shouldn't do. We don't think 
the information is specific enough to the local level to be 
able to make those decisions.
    Ms. Matsui. And what should Congress specifically do to 
finance flood control efforts as they relate to climate change?
    Mr. Stephenson. Well, we haven't really looked at that 
issue. We did look at the national federal flood insurance 
program, and we think it is interesting that there have been no 
portfolio adjustments on the federal government's part for the 
insurance industry, similar to what Swissree and some of the 
big reinsurers of the world have already done. They have 
already looked at climate change projections and adjusted their 
portfolios to minimize their risk. And we are suggesting that 
the federal government should do the same thing, both for crop 
insurance and flood insurance.
    Ms. Matsui. Okay. Thank you, Mr. Chairman.
    Mr. Inslee. Thank you. Mr. Pitts, Pennsylvania.
    Mr. Pitts. Lord Monckton, you say the European try at cap-
and-trade has failed. Would you elaborate? And why do you 
suggest the U.S. may go it alone?
    Mr. Monckton. Certainly. You go it alone, I think, to 
answer that question first, because those who have tried cap-
and-trade have found it doesn't work. Those who are thinking of 
trying it are, in the light of that, beginning to revise their 
opinions on whether they should. There are many problems with 
cap-and-trade, but to answer your question about the European 
experience in particular, the European Union, which is governed 
by effectively a bureaucratic centralist dictatorship in 
Brussels, decided to allocate to each member state a right to 
emit without payment, which exceeded each states total 
emissions.
    Not surprisingly, therefore, the price of the rights to 
emit carbon per ton fell to the market clearing level of zero 
on the artificial carbon trading hot air markets--called the 
trading in hot air on the London market in recognition of its 
general uselessness.
    So it failed, and they therefore decided they would issue 
an edict that each country was not allowed to give away as many 
free permits as before. However, the economic collapse then 
supervened, and when you have a declining economy, then what 
happens is whatever price you try to set for carbon will 
promptly fall on the open market and we are now once again 
trading carbon permits at dangerously close to zero. So for the 
second time, the European system has failed in much the same 
way as the New Zealand has also failed. And in Australia where 
they had been contemplating carbon trading, the Senate, much as 
here, has decided that it doesn't like the idea.
    So if you do impose carbon trading, then you could be 
shooting yourselves uniquely in the foot because most other 
countries in the world are at present disinclined to follow 
you.
    Mr. Pitts. And whom do you believe will be most affected by 
cap-and-trade or a carbon tax or any other method of increasing 
energy prices?
    Mr. Monckton. That is an extremely good question, and the 
answer is unfortunately horrifyingly clear. It is the low-
income families. It is the poor. Why? Because a larger 
proportion of their income is devoted to spending on energy 
than any other sector. Now, of course, there may or will indeed 
be elaborate attempts to make transfer payments to the poor to 
try to cushion them to some extent or even fully from the 
effects of this misguided type of taxation.
    But unfortunately, that then leaves the cost of it falling 
disproportionately on the middle class because, as you may 
know, President Obama has recently given strong indications to 
the other people who are most heavily affected by cap-and-
trade--that is very big, heavily emitting industries, of 
course, electricity generation, steel, concrete, construction, 
so forth. They would have suffered very badly by this, and 
President Obama has said that he is going to look favorably on 
exempting them to some degree.
    If he does that, then the entire cost of a tax, which is 
supposed to bring in very nearly the equivalent of the entire 
federal budget on average for the last five years, and it will 
bring it in every year for the next eight years, $2 trillion a 
year. That is going to fall entirely on small businesses who 
are already disproportionately affected by the existing 
recession.
    If that happens, there will be bankruptcies all round, and 
it is even possible that this scheme, as at present conceived--
and I must make this point very clear to you--could bankrupt 
the United States government itself.
    Mr. Pitts. Dr. Beisner, you criticize the promotion of 
solar panels and renewable energy in the developing world. Why 
do you believe this is not in the best interest of the poor?
    Mr. Beisner. Well, the developed world managed to do a 
great deal of its economic growth on the basis of the very 
inexpensive energy that was available to us by the development 
of grids and the like. Just recently, Abbot E. Shlaze's book, 
``The Forgotten Man'' was published on the history of the Great 
Depression.
    She discusses the competition between the idea that there 
should be small, local generating plants, indeed even possibly 
generators at every home, versus the idea of grids. And 
essentially what we are being asked to do when we say let us 
have the small alternative energy things for people's huts and 
so on in Africa is to choose what they figured out, even at the 
time of the 1920s and 1930s was not going to work here. It is a 
short-term, really elusory solution that has long-term costs by 
directing capital investment away from the types of generation 
and distribution of electricity that can reach the lowest cost 
per kilowatt-hour delivered in the longer term.
    And so what we are actually doing is asking the poor to 
adapt fairly expensive short-term solutions in exchange for 
much cheaper long-term solutions for their energy needs.
    Mr. Pitts. So what do we do? What is the best approach to 
help developing nations to help the world's poor and 
impoverished?
    Mr. Beisner. Well, as Bjorn Longbourg and the Copenhagen 
Consensus have pointed out, certainly one of the most important 
things that we can do is to promote the Doha Round and world 
trade generally because general world trade is the most 
important thing for raising income levels. And as income levels 
rise, those can generate enough capital investment to support 
the provision of large-scale energy systems to electrify the 
homes of the roughly 2.6 billion people around the world who 
don't have them.
    Rather than highly centralized governmental solutions, I 
think the market solutions are the best, and that is what we 
learn from the history of economics.
    Mr. Pitts. My time is up. Thank you, Mr. Chairman.
    Mr. Inslee. Thank you. Ms. Capps, California.
    Ms. Capps. Thank you, Mr. Chairman. I want to thank all of 
our witnesses. I agree with my colleague who said this is quite 
a stellar panel and very interesting. I thank all the 
witnesses, and I want to thank especially and associate myself 
with the remarks of Bishop Holloway, since you represent my 
faith tradition.
    And I feel I must make a brief disclaimer to you, Lord 
Monckton. I am privileged to represent a congressional district 
in California which stretches a bit over 200 miles of 
coastline, and I want to reassure you that my neighbors and I 
have no intention of packing up and leaving anytime soon.
    Mr. Monckton. I am delighted.
    Ms. Capps. Thank you. Mr. Schweiger, as I mentioned, my 
congressional district lies entirely within California's 
coastal zone. We must plan for sea rise, and then in that 
regard, I suppose I could represent any community along the 
coastal areas of our nation and perhaps indeed of the world. It 
has been said in my area if we bury our heads in the sand on 
the issue of sea rising, we may drown.
    Could you give some specific strategies that managers 
federally, locally, and other kinds of interveners could manage 
to help our communities to be more resilient in the face of 
climate change? How might we or should we change some of our 
approaches to the management of coastal areas?
    Mr. Schweiger. Well, thank you for the opportunity to 
respond. I think the first thing we need to do is actually to 
cap pollution because the most important thing we can do is 
quit feeding the beast that is raising the sea levels and 
warming our planet. Secondly, I think it is important for us to 
do really good downscaling of the models that are currently 
being used to assess the condition of our planet. And I would 
say the greater granularity we can get into those models, the 
more we can know exactly what we are dealing with locally.
    And I think it is important, as we plan those futures, that 
we anticipate the range of sea level rise, and that goes for 
water supplies, sewage and storm water management. I think it 
also speaks to the design of culverts and all the other things 
that we do in a community. We need to understand that we are 
going to have more vigorous rainstorms. Coastal flooding is 
going to be more intense in many places.
    But I think it is so important to get that downscaling 
right so that we know precisely the kind of choices we need to 
make for both humans and nature.
    Ms. Capps. Thank you. And, Mr. Karl, this is what your 
agency does. I don't have time to ask you, but I am certainly 
very interested in working with NOAA as we design this 
granularity to be specific to our communities. And you have 
people in my district that I am very grateful for, and I look 
forward to that partnership.
    I want to turn the rest of my time to the comments that 
were made by Mr. Waskow and Bishop Holloway. You made the 
statement, Mr. Waskow, that it probably will cost upwards of 
$50 billion to address adaptation needs. And it has been 
alluded to that, like the wildlife and the marine life, whose 
creatures are most impacted by a climate change and are not 
really responsible for it nor in the position to really adapt a 
lot. The poorest of the poor, as the bishop described, are 
often living in coastal areas. Again didn't contribute very 
much to this and will certainly be at the mercy.
    And there is a moral compulsion, which I hope each of you 
will address. But there is also a piece of it that I want to 
get on the record. That it would be in our interest. It is an 
investment really that could be made to assist these 
communities in adaptation to climate change because it can 
provide their self-empowerment and their ability to decrease 
their dependency and to increase their self-sufficiency.
    And I don't have much time, but maybe if each of you could 
say a word to this.
    Mr. Waskow. Absolutely, and I would fundamentally agree 
that it is in our national interest to address adaptation needs 
around the world for several reasons. One is the security 
dimension that has been alluded to already. The second has to 
do with costs that we would face from responding to disasters. 
So for example, helping provide irrigation equipment, improve 
agricultural practices, drought, and water resistant seeds. 
Those kind of things help in reducing the risk of famine or 
other food crises.
    Similarly, helping communities improve and strengthen their 
infrastructure, their roads, their bridges, their schools, 
their clinics, helps in reducing potential disaster response 
costs down the road. And----
    Ms. Capps. I know you could say more, but I want to ask the 
chairman's indulgence if I could ask my bishop to make one word 
on this.
    Mr. Inslee. Go ahead.
    Ms. Capps. Thank you.
    Bishop Holloway. I look at this in a three-tiered way. That 
in our work of dealing with the issues and problems of many 
different people around the world, I see that one pillar must 
be emergency and immediate aid. That is incumbent upon us. The 
other is where we can to work in an accompaniment model. Rather 
than telling folks what to do, we work with them to see what we 
can jointly discover as the best way to build capacity, the 
capacity that might lead toward self-sufficiency.
    And the third thing is advocacy for those who do not have a 
voice but who have just as much at stake in the quality of life 
as anyone else. So these are the three areas, I think, that we 
are most effective, and look for legislation here since we are 
the, for lack of a better term, the biggest dog in the pounds.
    Ms. Capps. Thank you very much.
    Bishop Holloway. So we have a higher responsibility since 
we have higher resource.
    Mr. Inslee. Thank you.
    Ms. Capps. Thank you.
    Mr. Inslee. Mr. Shimkus of Illinois.
    Mr. Shimkus. Thank you, Mr. Chairman. Great to have the 
panel. I apologize for being in and out. That is kind of our 
line of work. Let me ask a question. When we have had these 
debates in the previous year, we used to talk about the off 
ramp. It is not being talked about very much now, and the basic 
premise was if China and India do nothing, all our pain and 
agony is for no results.
    Should there be an off ramp in the legislation on climate 
change? And just say kind of yes or no, maybe a little phrase 
so I can get my time in. Bishop Holloway.
    Bishop Holloway. I don't believe so, sir.
    Mr. Shimkus. Okay.
    Bishop Holloway. And----
    Mr. Shimkus. If it can be quickly.
    Bishop Holloway. Okay, yes. That is impossible.
    Mr. Shimkus. Why is it impossible?
    Bishop Holloway. Because ministers cannot speak briefly.
    Mr. Shimkus. I thought it was impossible because China and 
India will never agree to any cap on carbon, and so to assume 
that China and India will be involved in any regime to control 
climate, that is the impossibility. Mr. Waskow.
    Mr. Waskow. We have the greatest historical responsibility 
for emissions. We have to take the lead, and I think that by 
taking the lead, we will be most able to bring others like 
China and India along.
    Mr. Shimkus. Okay. Lord Monckton.
    Mr. Monckton. None of the disasters imagined by this 
committee will happen. Sea level, in particular, is not about 
to rise by more than around eight inches to a foot this 
century. Even the UN says only 1.5 foot, maximum 2. That is not 
going to do any damage except in places where the land is 
subsiding from non-climate change reasons.
    Mr. Shimkus. Okay.
    Mr. Monckton. The Chinese and the Indians are perfectly 
aware of this. They have declared over and over again that----
    Mr. Shimkus. All right.
    Mr. Monckton [continuing]. And rightly that they are not 
going to do this. And therefore, you should indeed have an off 
ramp. Thank you.
    Mr. Shimkus. Thank you. Dr. Beisner.
    Mr. Beisner. Yes, we should have an off ramp for precisely 
that sort of reason, but also simply because the assumption 
behind all of this is that the climate change that we are 
seeing has been human driven. Climate change and human driven 
climate change are not the same thing. And the increasing 
tendency of the most recent scientific publications has been to 
magnify the apparent natural contribution and minimize the----
    Mr. Shimkus. Quicker please. Mr. Schweiger.
    Mr. Schweiger. I believe that the Himalayas are at great 
risk. The Chinese and Indian governments are well aware of 
those risks, and I----
    Mr. Shimkus. Should there be an off ramp?
    Mr. Schweiger. I believe what we ought to do is work 
closely with China particularly to find common ground to make 
the----
    Mr. Shimkus. Should there be an off ramp?
    Mr. Schweiger. I do not believe that we should back away 
from our responsibilities.
    Mr. Shimkus. Should there be an off ramp?
    Mr. Schweiger. No.
    Mr. Shimkus. Thank you. Mr. Stephenson.
    Mr. Stephenson. We can't control what China does. We have 
to take action irregardless of what they do. So there should 
not be an off ramp.
    Mr. Shimkus. Thank you. Mr. Karl.
    Mr. Karl. Our agency works to provide the science to help 
provide that.
    Mr. Shimkus. You are right. Very good. We had testimony 
here--I want to talk to the impact on the middle class and the 
poor. My district represents 30 counties in rural southern 
Illinois, stretching from the state capital of Springfield down 
to the Paducah, Kentucky, Indiana line. This is a mine, as I 
said in opening statement. 1,200 miners lost their jobs.
    I now know through additional research further mines closed 
primarily because of the Clean Air Act amendments. The economy 
of southern Illinois has been devastated through the mine 
closures. The Coal Association of Ohio testified just last week 
36,000 mine workers lost their jobs.
    This is an incredible impact on the livelihood, and it does 
fall disproportionately on the poor. They will pay the burden 
of this through job loss, through long distances, through 
travels.
    Lord Monckton, talk to me about this debate on are we a 
carbon-starved planet.
    Mr. Monckton. Well, Will Happer testified--he is from 
Princeton--testified in front of the Senate committee with Dr. 
Patrari on this recently. In Will Happer's view yes, we are 
carbon-starved. If we go back to the Cambrian Era, 7,000 parts 
per million to compare with less than 400 parts per million 
today. Go back to the Triassic Era, 175 million years ago. At 
the time when the Aragonite corals, the most fragile of all the 
corals, came into being by algosymbiosis for the first time. 
Again around 6,500 to 7,000 parts per million of carbon 
dioxide.
    Carbon dioxide is a plant food. It is necessary.
    Mr. Shimkus. Say that again. Carbon dioxide is what?
    Mr. Monckton. Is plant food.
    Mr. Shimkus. It is plant food?
    Mr. Monckton. Yeah, without it, all plant life and 
therefore all life that depends on plant life----
    Mr. Shimkus. So if we were to decrease the use of carbon 
dioxide, are we not taking away plant food from the atmosphere?
    Mr. Monckton. Yes, indeed you are. The U.S. Forest Service 
has very good figures, showing the enormous growth in the 
cubic----
    Mr. Shimkus. So all our good intentions could be for vain? 
In fact, we could be doing just the opposite of what the people 
who want to save the world are saying?
    Mr. Monckton. You could indeed. You are quite right.
    Mr. Shimkus. The basic finish with this comment is the 
earth will not be destroyed by a flood. And I yield back my 
time.
    Mr. Inslee. Thank you. We have, I believe four, maybe five 
more members. We could go with a lightning round of 2 minutes 
apiece and vote, or we could continue and then come back. The 
chair would suggest we do a lightning round of 2 minutes 
apiece, and I just wonder if anyone would have objections to 
that. Vote is going to start just briefly. I would suggest--the 
Chair is sacrificing his time in order to move forward. If 
there is no objection to that, let me suggest that we do that.
    Mr. Shimkus. I would object and just make that decision 
once the time comes for the call of vote.
    Mr. Inslee. We will always respect Mr. Shimkus's views, at 
least on this very small issue. Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman. I want to thank the 
panel for coming here. I think--good call--your testimony is 
excellent, and I want to congratulate Chairman Markey for 
pulling together this hearing.
    You know when we discuss adaptation, I can't help thinking 
about my home district in California for two reasons. One is by 
analogy to climate change, and the other by an already in 
progress impact of climate change.
    The first that I want to discuss is earthquakes. California 
is earthquake country, and we have learned a lot about how to 
adapt to earthquakes. We build our buildings better, and the 
results are pretty dramatic; although we still have a lot to 
learn and a lot to do to make our city safer.
    The second is water. You know many glaciers are receding 
around the world, and California depends on its snow packs. So 
we are deeply engaged in planning and preparing for this, and I 
think that is an adaptation to global warming. So building 
buildings better and more resilient and building better 
waterways is good sense. The threat of global warming just adds 
urgency to this whole issue.
    So, Mr. Monckton, I have a question. Do you think we should 
stop planning for earthquakes and stop adapting for water 
changes, or what should we do in this case?
    Mr. Monckton. Sir, as far as earthquakes are concerned, 
there is no connection between earthquakes and global warming.
    Mr. McNerney. No, but it is adapting to----
    Mr. Monckton. Yes, of course, you should always adapt to 
natural change.
    Mr. McNerney. So should we adapt to water coming down from 
the Sierras?
    Mr. Monckton. If, as California is a very heavy user of 
water, you will need to make sure there are continuing water 
supplies.
    Mr. McNerney. So adapting----
    Mr. Monckton. However----
    Mr. McNerney [continuing]. To change in progress is a good 
idea?
    Mr. Monckton. So of course adaptation to natural changes 
that occur is very sensible.
    Mr. McNerney. Thank you.
    Mr. Monckton. If there were any----
    Mr. McNerney. Mr. Karl. May I ask you, Mr. Karl, could you 
just give me a little bit of detail about some of the models of 
the resolution that you have, the accuracy that you have? I am 
a scientist, a mathematician, and I did spend my career in 
modeling, so I am interested technically in where we are with 
this stuff.
    Mr. Karl. Yeah, one of the things we can tell you is that 
the models today are good enough to be able to identify some of 
the causes for some of the water issues out west with respect 
to changes in the snow melt season. Snow melt, from the 
observations we already see, it is melting earlier, more 
frequently, that runoff occurs more earlier. It means there is 
less water available later in the summer for use. That kind of 
an activity--that kind of process is expected to continue and 
accelerate as global warming continues on into the future. So 
that is one example from the point of water.
    Another one has to do with changes in heavy precipitation 
events. We are seeing a change in the frequency of heavy 
precipitation.
    Mr. McNerney. So you have confidence in the resolution of 
these models and the accuracy of these models?
    Mr. Karl. Yes.
    Mr. McNerney. In sort of an average sense?
    Mr. Karl. In a broad sense, yes.
    Mr. McNerney. Okay, we will have to talk more about that at 
a different time. I am going to yield back to my courteous, to 
my other----
    Mr. Inslee. Thank you. I appreciate that. Mr. Burgess.
    Mr. Burgess. Thank you, Mr. Chairman. Mr. Karl, in a way, 
your federal agency is an adaptation, is it not? Isaac Klein, 
the famed meteorologist in Galveston with the storm that Gene 
Green mentioned of 106 or 107 years ago. I mean your federal 
agency came into existence as a consequence of the troubles 
that Mr. Klein encountered at that point with not being able to 
predict what was fixing to happen to them. And, of course, the 
large loss of life that then ensued.
    So in many ways, what we are seeing today with your federal 
agency is an adaptation to the fact that if you develop coastal 
areas from time to time, you will be visited by hurricanes. Is 
that not correct?
    Mr. Karl. There is no question.
    Mr. Burgess. Now, on the issue of hurricanes--I apologize 
for not having the data in front of me, but it seems like in a 
newspaper report from just a few days ago, we are--we have 
entered into a period of a relative lull in hurricanes. Am I 
correct in that?
    Mr. Karl. All I can tell you is that we have, over the past 
several decades, seen an increase in hurricane activity. And in 
fact, the most recent paper, looking at the--all the global 
oceans have identified fairly conclusively that since the early 
'80s, the intensity of the strongest storms has actually 
increased.
    Now, one has to recognize when we get down to smaller and 
smaller scales, because we have fewer hurricanes, it is more 
difficult to say, for example, yes we are seeing a change in 
intensity of storms----
    Mr. Burgess. Well----
    Mr. Karl [continuing]. Affecting a particular part of the 
coastline.
    Mr. Burgess. And I don't mean to be disrespectful, but the 
chairman has limited my time. We see cycles. We are in a bad 
recession right now. We are told that it is equivalent to the 
Great Depression of the 1930s, but we don't have the adverse 
weather phenomena that they encountered in the 1930s in the 
form of the Dust Bowl.
    But having moved to the state of Texas as a very, very 
young child back in the early '50s, I remember very well the 
seven years that it didn't rain. As I recall, the newspapers 
attributed that to the fact that the Russians were testing 
nuclear weapons in the atmosphere and it was the Russian 
fallout that was responsible for no rain. I guess our fallout 
was exempt.
    But nevertheless, there always seems to be a reason that we 
will look for when we encounter these odd weather cycles. So 
how do we know, as we are sitting here and we are going to make 
policy, significant policy that is going to affect the next 
three generations of Americans, how do we know that we are just 
simply sitting here observing what our naturally occurring 
cycles in our climate, what would be the fingerprint? What 
would be the signature for evidence that this is a manmade 
phenomenon?
    Mr. Karl. That is an excellent question, and I can tell you 
what NOAA is doing is what we actually do is go back in time 
and actually simulate in our computers the kinds of conditions 
that have occurred that actually led to various intensities and 
frequencies of hurricanes each season. And one of the things I 
can say with the American Recovery Act, we actually now will 
have access to supercomputing pedaflops that our computers will 
be running these models in much higher resolution mode to be 
able to pinpoint with greater accuracy and greater 
understanding.
    Mr. Burgess. So right now, we just simply do not know. We 
don't have the data that we are required to have.
    Mr. Karl. We want now. Right now, our----
    Mr. Burgess. And I don't disagree, and I don't mean to be 
disrespectful. I only have a limited amount of time and Lord 
Monckton.
    Mr. Karl. All I can tell you is that the projections in the 
future of the models show more intense hurricanes. Right now, 
the linkage in terms of a specific attribution between what we 
have seen and intense hurricanes still awaits more scientific 
study.
    Mr. Burgess. Lord Monckton, you were wanting to tell me 
something.
    Mr. Monckton. Yes, sir. You wanted to know what the current 
state of play is about hurricanes. Over the last 30 years, 
satellites have been monitoring the frequency and intensity of 
hurricanes and accumulated cyclone energy index is compiled, 
which is a two-year running sum of the frequency and intensity 
of all hurricanes, tropical storms around the equator, and the 
current value of that accumulated cyclone energy index is the 
lowest it has been in the 30 years globally that has been 
recorded. So you are quite right.
    Mr. Burgess. So you will make that data available to Mr. 
Karl to plug into the supercomputer?
    Mr. Monckton. I will give him the graph. It has been 
published recently.
    Mr. Burgess. Wonderful. Look forward to that. Mr. Chairman, 
I am going to yield back in the interest of time.
    Mr. Inslee. Thank you. Appreciate that. Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman. Dr. Karl, you are 
having this debate here about CO<INF>2</INF> concentrations in 
the atmosphere, a lot of evidence that they are actually 
rising, and whether they are doing so in line with the 
projections of the Intergovernmental Panel on Climate Change. 
My question is, is the level of CO<INF>2</INF> in the 
atmosphere easily determined? I mean is that really a 
scientific debate about whether we can measure it? And is it 
not the case that the level, in fact, is higher than in the 
past IPCC projections?
    Mr. Karl. To answer your question, it is probably the most 
confident measurement we can make, and that is the level of 
carbon dioxide in the atmosphere. And indeed it is increasing, 
and it is due to human causes.
    In relation to comparison to IPCC, again what IPCC uses are 
scenarios, and there are a number of scenarios they use in 
terms of how carbon dioxide concentrations would change in the 
future without any policy options but with considerations of 
economic growth, technology intervention. And if you look at 
those scenarios, the current levels of carbon dioxide 
concentration are very consistent with those models, in some 
respects, might even be a little bit low.
    Mr. Welch. Thank you. I yield back, Mr. Chairman.
    Mr. Inslee. Thank you. At this time, the committee will be 
in recess. I think about 12:30. Can the panel all stay with us? 
Is that acceptable? Thank you for your courtesy. Mr. Schweiger 
may not be able to, but we appreciate it, and we will be back 
by about 12:30. Thank you.
    [Recess.]
    Mr. Inslee. The hearing will convene, and we will hear from 
Mr. Stearns--excuse me, Mr. Scalise.
    Mr. Scalise. Thank you, Mr. Chair. Looks like Mr. Schweiger 
has left. Is this gentleman Mr. Kostyack? Can you answer 
questions on--there was part of Mr. Schweiger's written 
testimony that I have a big issue with is in relation to his 
claim that the deaths attributed to Hurricane Katrina are--well 
the deaths from Hurricane Katrina are attributed to global 
warming. He actually attributes 1,800 deaths from Katrina to 
global warming, and I understand that he has left. I am sorry 
that he has left because I represent a district that includes 
many of those areas that were hit by Hurricane Katrina and in 
fact incurred some of those deaths. And I take strong issue 
with the fact that he would attribute those deaths to global 
warming when, in fact, there is substantial record of 
documentation that both points out that global warming had 
nothing to do with Katrina's deaths but, in fact, it was the 
failure of federal levees as well as the problems caused from 
coastal erosion.
    Now, what documentation, if you can speak for Mr. 
Schweiger, what documentation did he base his assertion on?
    Mr. Kostyack. I would be happy to speak for Mr. Schweiger. 
We didn't, in our testimony, state that global warming was 
directly responsible for that particular----
    Mr. Scalise. In written testimony--it is in his written 
testimony that he submitted right here on page 9.
    Mr. Kostyack. There is certainly, and we made the link in 
the testimony between global warming and that storm because of 
the fact that there is extensive scientific data showing a 
linkage between the intensification of coastal storms and 
global warming. And so, although you can never pinpoint one 
particular storm in saying that storm was caused by global 
warming, you could certainly say, as we did in the testimony, 
that a storm of that nature is becoming more prevalent in this 
era of warming. And I would defer to my colleague from NOAA to 
give you the citations to the papers. But there is extensive 
literature in this area.
    Mr. Scalise. And I will read his quote. ``Increases in 
weather-related disasters associated with global warming carry 
more than an economic cost. The perils of weather-related 
disasters are exemplified by Hurricane Katrina, which caused 
one million evacuees to flee and more than 1,800 deaths.''
    Now, I would urge you to go and read the report by the Army 
Corps of Engineers who acknowledges that the failure of federal 
levees is what lead to the deaths from Hurricane Katrina as 
well as the increased damage done by storms over the years due 
to coastal erosion, which at the state level, the state is 
working on restoring the coast, which is a very important issue 
for blocking future storms.
    But I would just urge you to spread that word back to Mr. 
Schweiger that I think it diminishes his credibility when he 
makes statements attributing deaths from Katrina to global 
warming to try to further his cause because that had nothing to 
do with it. And if he has some proof that carbon emissions had 
anything to do with the failure of those levees, tell him to 
get that information to the Corps of Engineers because no one 
has ever asserted that up until this point.
    I see Lord Monckton nodding. If you had anything you wanted 
to add to that, Lord Monckton.
    Mr. Monckton. Certainly, sir, with pleasure. Mr. Justice 
Burton in the high court considered this matter because, of 
course, Al Gore has also in his sci-fi comedy horror movie 
attributed the Hurricane Katrina to global warming. And Mr. 
Justice Burton, after hearing very careful evidence from both 
sides, including our own meteorological office, which tends to 
share the views of your NOAA over here, came to the very firm 
conclusion that that link cannot be established.
    And it is also worth recording that Hurricane Katrina was 
only a category three at the point where it made landfall. And 
as you have rightly said, sir, the real failure here was the 
failure of the local administration--I cannot for the moment 
remember which party it is--to make sure that the levees were 
adequately maintained.
    Mr. Scalise. The Army Corps of Engineers, which actually 
issued a report acknowledging that those levees failed in a way 
that they should not have failed for a category three.
    Following up on a point you made about Al Gore, because Al 
Gore has said on record that the UN is wrong and sea levels may 
rise upwards of 20 feet by the end of the 20th Century. Do you 
prescribe to that view that Al Gore has----
    Mr. Monckton. I have recently consulted the world's 
foremost expert on sea level, Professor Neals Axcel Murner, who 
has written 520 papers on the subject. He tells me that sea 
level in the last century rose eight inches compared with an 
average centennial rate of rise over the past 10,000 years of 
four feet per century. And his best estimate is that it will be 
another eight inches. Now, the UN says perhaps 1.5 as its 
central estimate in the whole of the next century.
    Mr. Scalise. And I am about to run out of time. One last 
question, Lord Monckton. Over the past decade or so, have 
temperature observations verified the model predictions that we 
keep hearing about?
    Mr. Monckton. No.
    Mr. Scalise. Thank you. I yield back.
    Mr. Inslee. Thank you. Chair will recognize myself. Mr. 
Karl, the Right Honorable Lord Third Viscount Monckton of 
Brenchley had told us that the earth is cooling, which is an 
extraordinary statement giving the unprecedented amount of 
scientific consensus to the contrary.
    I want to refer you to a slide showing five-year averages. 
The NIS GISS data and CRU Hadley data. You have to look behind 
you to see it. I am sorry, Mr. Karl. It is over to your right. 
These are five-year averages that basically show temperature in 
five-year periods. Is it helpful to look at five-year averages 
when we are looking at climate trends?
    Mr. Karl. It is certainly helpful to average over longer 
periods than a few years. And in fact, I just want to point out 
that in the IPCC report, the reference to linkage between human 
contributions to changes in atmosphere composition and global 
warming was over the last 50 years. And there is a lot of 
danger in taking that record and looking at year-to-year 
variations and talking about cooling or warming.
    Mr. Inslee. Thank you. And my next chart, if we can put the 
next chart up, I think shows the wisdom of that, that basically 
shows annual temperatures which does show the temperatures in 
'08 somewhat less than '04. But the trends are obviously 
disturbing. And I would trust the 2000 IPCC scientists.
    The next slide please showing observed monthly carbon 
dioxide trends as measured at Mauna Loa since 1973 compared 
with the emissions scenarios of the IPCC. Will show that in 
fact the emissions, actually the concentrations in the last 
several years have been higher actually than even the models. 
Is that correct?
    Mr. Karl. Yes.
    Mr. Inslee. Okay, next slide please. You can help me. The 
other slide, it was the first slide of Lord Viscount Monckton. 
Yes, I was looking at this. I was intrigued by your testimony, 
Lord Monckton, and I was just wondering what this graph was.
    Mr. Monckton. That is merely the header sheet so I know 
that the slides are up there. In fact, it is the view from my 
library in Renneck.
    Mr. Inslee. Is this a coat of arms? Is that what they call 
this in England or----
    Mr. Monckton. No, sir, that is the four colors, which is 
the symbol of the House of Lords, and superimpressed upon it is 
the Visacomital Coronet.
    Mr. Inslee. Thank you. I appreciate that. Lord Monckton, 
how much have the seas acidified since industrial times? By 
what percentage are there higher concentrations of the ions 
contributing to acidic oceans compared to pre-industrial times? 
I will just take a number if you can give it to me.
    Mr. Monckton. Certainly. There has been no satisfactory 
measurement to establish it, but modeling suggests--and I don't 
know how reliable the modeling is--that the pH has reduced by 
0.1.
    Mr. Inslee. And what percentage increase in ions--the 
scientists tell me that is a 30 percent increase in the ions 
concentration compared to pre-industrial times. And I am a 
little stunned by your statement that there is no evidence in 
this. In fact, there is overwhelming evidence from multiple 
sources that our oceans are becoming more acidic. Most recently 
off the coast of Washington State and Tatoosh Island, which 
showed the acidification caused by anthropomorphic, meaning us 
putting carbon dioxide in the atmosphere, going into solution 
and then making the oceans more acidic is actually accelerating 
even beyond the models that it clearly is at extraordinarily 
high levels compared to pre-industrial times.
    Now, do you think that given the value set that you bring 
to this testimony, considering that that can adversely impact 
living creatures including coral and phytoplankton at certain 
levels, that that is something that we should make an effort to 
arrest?
    Mr. Monckton. No, sir, I don't think you need to because if 
we go back a little bit further than the period you are looking 
at, and we go back to the Triassic Era where the most fragile 
of the corals first evolved, they were the Aragonite corals, at 
that time there 6,500 parts per million of CO<INF>2</INF> in 
the atmosphere. One can presume therefore that there would be 
more CO<INF>2</INF> in the oceans at that time as well. And the 
corals did just find. Indeed, that is when they evolved. So we 
know from these geological records that the fears over ocean 
acidification have been much exaggerated.
    Mr. Inslee. Well, your testimony is in stark contrast with 
the entire rest of the biological and botanical testimony 
because you are talking about corals that were adapted to those 
conditions. We are talking about corals that are adapted to our 
conditions of acidity in the ocean. They are entirely different 
species.
    In fact, it is shown by new research, so when you go back 
home, you can notify them in your country of what we found in 
this country, which is acidification at certain levels, which 
we will approach in this century, retards the calcification and 
the deposition of calcium carbonate. That is a message from 
America just so you will know, and we have lots of literature 
about this I would be happy to provide you. Thank you.
    Mr. Monckton. Without objection, sir, may I introduce into 
the record a recent book on the subject by Dr. Craig Itso, 
which is a comprehensive review of literature on precisely this 
subject? And I think you will find that it does show a rather 
different picture.
    Mr. Inslee. Thank you. We enjoyed----
    Mr. Monckton. Thank you, sir.
    Mr. Inslee. Sure, we will insert that in the record. Mr. 
Karl, do you have any comments on ocean acidification, what 
NOAA's findings have been?
    Mr. Karl. It is a very important issue that our agency is 
looking at, and I am happy to report that we have some leading 
researchers in the world. Dr. Richard Feely, who just recently 
published a paper pointing out some of the observations that 
indicate that the oceans indeed are acidifying and the 
projections with continued increase in carbon dioxide in the 
atmosphere are for those increases to have gone up about a 
tenth in pH, another--not a tenth, a tenth of a unit. Another 
one-tenth to two-tenths of a units with the kinds of 
concentrations as projected by IPCC.
    Mr. Inslee. Thank you. Well, I turn to Mr. Stearns of 
Florida.
    Mr. Stearns. Thank you, Mr. Chairman. Lord Monckton, let me 
just give you a hypothetical question here that you might help 
me with. In mitigation that is the elimination of 
CO<INF>2</INF>, let us say, for example, the United States 
adopted cap-and-trade as well as all the other methods to 
totally eliminate energy-producing components that have 
CO<INF>2</INF> emissions in this country. We totally eliminate 
it. How long would it take theoretically to bring back the 
level of CO<INF>2</INF> that we have in this country today if 
we were successful in eliminating it? Is there any studies, or 
anybody that has done state-by-state in the United States, for 
example, my home state? Or is there any way to evaluate what 
the repercussions would be?
    Mr. Monckton. Let me start state by state. Yes, sir. The 
Science and Public Policy Institute publishes state-by-state 
surveys of what would happen to global temperatures if that 
state were to close down its emissions all together and go back 
to the Stone Age without even the right to light a fire in your 
caves. And the effect on temperatures is fair to say on an 
individual state-by-state basis is negligible.
    If you were to close down the entire United States economy 
and go back to the Stone Age, then what would happen is that is 
going to take you a certain amount of time to do. As you reduce 
your production here, since your citizens will still require 
much the same in the way of goods and services they had before, 
they will have to get them from overseas, from places like 
China and India where, alas, the emissions per unit of 
production are considerable higher, in some cases three or four 
times higher, than they are here.
    And therefore the net effect of the United States shutting 
down her economy would be to increase carbon emissions 
worldwide, achieving the very reverse of the objective which 
was however piously intended.
    Mr. Stearns. Are there any timeframes you could say this 
study was done on so you could say theoretically if we shut 
down like say over the next seven years before we would see the 
CO<INF>2</INF> emissions come up to what they are?
    Mr. Monckton. You would see virtually no decline at all 
because so quickly would other countries take up the production 
that you forego. If you transfer your jobs and your industries 
and your wealth to other countries and get them to do the work 
that was once done here, then the uptake, and therefore the 
increase in CO<INF>2</INF> emissions, will be more or less 
immediate.
    All you will be doing is shooting yourselves economically 
in the foot. Not only for no climatic benefit whatsoever, but 
actually you would end up making things worse. And you would 
end up making things worse more or less immediately.
    Mr. Stearns. You have used that term shooting ourselves in 
the foot. I think I will use one of your assistance, sort of 
call this kneecap-and-tax which would be shooting ourselves in 
the kneecap and then coming back in taxes and putting us in 
perilous condition.
    Mr. Waskow, I have an article here that says ``Biofuels 
pushing up food prices and poverty'' Oxfam that indicates. And 
so, you know, we had these well-intended mandates from ethanol. 
They were enacted supposedly to help the environment, and yet 
there seems to be consequences reading this article. Shouldn't 
we be cautious in implementing any new policy which would have 
far-reaching effects, such as a policy that would change the 
entire energy base of our country like kneecap-and-tax.
    Mr. Waskow. Well, I would say that it is absolutely the 
case that we need to be careful in designing a policy of this 
magnitude. I think that the consequences of climate charge are 
so grave, particularly for poor people around the world and 
also in this country, that a lot of the care that must go into 
it is, in fact, making sure that emissions do not continue 
rising in a way that is going to lead to even greater harm down 
the road.
    And in the near term, since this hearing is focused on 
adaptation, I would just note that part of the care that we 
must take in designing climate policy is, in fact, to make sure 
that those who are being affected now by the current impacts of 
climate change are, in fact, having their needs met and that 
the adaptation responses and resilience responses that are 
necessary are, in fact, being put in place.
    Mr. Stearns. Would you state then that you think that we 
should scrap all biofuel targets in the world?
    Mr. Waskow. Well, I mean if the question goes to whether to 
entirely remove any policy supporting any kind of biofuels, 
that would not be our position. However, we do think that in 
the case of biofuels, because of the food consequences, that 
targets need to be looked at very closely in terms of how they 
may affect food supplies.
    And so corn ethanol is an excellent example where we have 
serious concerns about what it means to ramp up production of 
that because of the food consequences worldwide.
    Mr. Stearns. Do you have any percentages that you could use 
it ramped it up by? In other words, you talk about these 
biofuel mandates. Have they increased global food prices by any 
percentage?
    Mr. Waskow. I am not aware that we have a specific number 
that one can attribute to the increase but----
    Mr. Stearns. The article says biofuels are responsible for 
30 percent of the increase in global food prices, pushing 30 
million people worldwide into poverty, the aid agency Oxfam 
said in a report Wednesday.
    Mr. Waskow. Yeah, I believe that that is--I will check and 
happy to get back to you in writing. I believe that that data 
reflects World Bank analysis of--in their annual economic 
report last year.
    Mr. Stearns. All right. Thank you, Mr. Chairman.
    Mr. Inslee. Thank you. Mr. Walden of Oregon.
    Mr. Walden. Thank you, Mr. Chairman. Mr. Kostyack, your 
predecessor at the hearing, Mr. Schweiger, made a comment that 
the Boreal Forests are either now or soon to be giving off more 
carbon than they are sequestering. And I wonder if you could 
speak to why that is.
    Mr. Kostyack. We are currently seeing a die-off of forests 
all around the globe, and it is due to the increased stress, 
rising of average surface temperatures around the globe.
    Mr. Walden. And would part of the effect of that be then 
additional drought conditions and stress on the trees 
themselves?
    Mr. Kostyack. That is correct.
    Mr. Walden. And so what is the proper intervention, if you 
are a forester, to help ameliorate that problem?
    Mr. Kostyack. Well, a number of ideas have been suggested. 
There is no easy answer. Much more research will be needed to 
manage our way through this problem. Obviously the first step 
is we need to cut global carbon emissions because we are not 
going to be able to adapt our way out of this problem.
    Mr. Walden. So you don't think managing the forests back to 
a more balanced system is an answer?
    Mr. Kostyack. No, that is where I was heading next. My 
point is----
    Mr. Walden. I am sorry.
    Mr. Kostyack [continuing]. That forest management by itself 
will not solve this problem. That the first step will be to cut 
carbon emissions. We will not be able to address massive die-
offs of forests we are seeing around the globe, unless we start 
there.
    The second will be to look at natural resources adaptation 
efforts, and that involves more scientific research. It 
involves storing as much ground water as possible. It means 
forest management to reduce some of the fuel load to avoid 
unnecessary catastrophic fires.
    Mr. Walden. I appreciate especially that last point. I 
represent a district of 70,000 square miles, 10 or 11 national 
forests. We have forests there that are completely overstressed 
right now today. 500 of the Wynema National Forest. There is 
about 500 square miles the bugs have been eating away at for a 
decade. It is ready to explode, and yet there are many 
organizations who care passionately about global climate change 
and CO<INF>2</INF> emission reductions that consistently, 
repeatedly, and aggressively appeal every proposal to go in and 
do thinning operations on these forests to get them back into 
balance with nature frankly because they--you can let them get 
back in balance a couple ways.
    You can let catastrophic fire just wipe out the stand. Or 
we can go in and using--and I think there is a pretty good 
basis of scientific knowledge on the number of trees per acre 
that would be historically correct. And yet the same 
organizations are opposing it. So I guess my question is--and, 
Mr. Monckton, maybe you want to--Lord Monckton, I am sorry. 
Maybe you want to speak to this as well.
    I know we sort of have this existing exchange policy in the 
world where we don't manage our federal forests in America. We 
would rather rape and pillage forests around the globe for our 
wood. And I am not exaggerating here. I mean 60 percent, I 
think, of Oregon's forest land is federal, and it represents 6 
percent of the trees that are actually harvested.
    I have counties that are at 19.7 percent unemployment. 
These folks--I was just out there. They don't understand why 
the forests are allowed to burn up around them, and they can't 
even cut burned dead trees while they still have value.
    And what they further don't understand is that their 
heating bills are going to go up dramatically under cap-and-
trade. And the one manufacturer that is kind of left in eastern 
Oregon makes cement, the Ashcome Cement Plant, and they figure 
they will probably have to close. Now, I don't know how this 
helps people in poverty.
    Mr. Monckton. Sir, I sympathize with you entirely. The one 
thing you don't want to do in the present economic 
circumstances is start closing down the few industries that 
still remain in the name of the Chimera of global warming, 
which visibly hasn't been happening for the last seven years, 
though it has been happening for the last 300. During at least 
270, we could not have had anything to do about it.
    As for the management of trees, you are quite right. It is 
essential that proper fire breaks be cleared and maintained so 
as to prevent forest fires. Forest fires are not new. They are 
not a consequence of global warming. They occur naturally. They 
are, in fact, a part of the natural process by which forest 
manage themselves. But if one wishes to minimize that, you must 
have fire breaks. And that is what we do in the U.K.
    Mr. Walden. Plus we are finding that even the old growth 
trees now are getting stressed because some years of drought. 
When they get stressed, then they bugs come in, and they kill 
the old growth trees, which many people would like to preserve. 
So it really is a problem.
    Let me shift gears because I only have 30 seconds left. My 
district also is home to some of the most active wind energy 
development out there, and our grid in the Northwest will soon 
have more wind on it than any other grid by percentage in the 
country.
    The question has recently come up by some groups that--and 
I thought this had been resolved--that wind energy and the wind 
turbines are killing raptors and birds. And so I would go to 
the Wildlife Federation. Is that the view of your organization 
that the wind energy we are putting in is--I thought they had 
designed around this problem.
    Mr. Kostyack. There are some negative impacts on wildlife 
from wind energy development. That being said, these problems 
can be worked out. There are technical solutions. I mean let us 
recognize, first of all, just installing the wind power by 
itself will take out some habitat. And then there are some 
collisions we would need to address both with birds and bats.
    We are very much supportive of building out a massive wind 
energy----
    Mr. Walden. That is what I thought.
    Mr. Kostyack. And it is fundamental to the solution of 
global warming. This goes through our overall message here 
today. We are going to need to have a major investment in 
natural resources adaptation. And that means a lot of public 
outreach for people to understand some of these tradeoffs. 
There is no free energy source, and so we are going to have to 
find ways to minimize wind impacts. There are ways to place 
these renewable energy systems in the most degraded areas or 
areas where there is also essentially a human footprint and 
trying to protect those pristine areas.
    But at the same time, we have to get this wind energy 
complex built.
    Mr. Walden. But at the end of the day, you kind of have to 
put it where the wind is.
    Mr. Kostyack. That is one of the key factors to look at, 
yes.
    Mr. Walden. Yeah, all right. Thank you. My time has run 
out, Mr. Chairman. Thank you all. I appreciate your testimony 
from all of you.
    Mr. Inslee. Thank you. With unanimous consent, the chair 
will put into the record a letter dated March 24, 2009 from the 
Outdoor Industry Association and another one from a group of 
organizations including the League of Women Voters, dated March 
25, 2009.
    [The information appears at the conclusion of the hearing.]
    I would extend an opportunity to any of you who feel a 
burning passion to make another one-minute statement on 
anything you didn't have a chance to say. We want to make sure 
the witnesses have a chance to respond to any of the questions 
you asked. If any of you would like to take a minute to extend 
your comments, feel free to do so. Mr. Karl, if you would like 
to. Don't feel compelled by the way.
    Mr. Karl. No, I don't. I just want to----
    Mr. Shimkus. Mr. Chairman, may I ask a question?
    Mr. Inslee. Certainly.
    Mr. Shimkus. Does that mean we get a chance for a 1-minute 
response to their 1-minute question?
    Mr. Inslee. If Mr. Shimkus would like, I would certainly--
    Mr. Shimkus. I mean I am just trying to find out the rules 
here.
    Mr. Inslee. I would be happy to extend a minute to Mr. 
Shimkus for sure if that is so ordered by the two consensus 
builders of Shimkus and Inslee. Mr. Karl.
    Mr. Karl. Yeah, I just wanted to thank the committee for 
addressing this extremely important issue and note that there 
is enormous amount of climate change science that is available 
today. The major challenge for our agency, which we hope to be 
able to address in the short few years ahead is to take that 
science and be--make it available to help make decisions, 
practical decisions, that are required from a local scale all 
the way up to national and international scales. Thanks.
    Mr. Inslee. Thank you. Mr. Stephenson.
    Mr. Stephenson. I would parrot that, but I think we have an 
information shortage here, especially at the local level such 
that we are not prepared to make economic decisions yet. We 
need the data first before we can do the cost/benefit tradeoffs 
on what is going to be worth the investment and what is not.
    And the same is true with the cap-and-trade bill, from the 
way you design it, how expensive or not it is going to be and 
whether the benefits are worth the cost. So I just don't think 
we are there yet. I think we need to negotiate the specific 
details of any legislation and see what that means before we 
can say universally that it is going to cost jobs and tank the 
economy.
    Mr. Inslee. Mr. Waskow.
    Mr. Kostyack. Mr. Inslee, thank you, Chairman, for the 
opportunity. Very much want to associate myself with my 
colleague's remarks about the need for more additional 
scientific research. If you look at the overall agenda for 
natural resources adaptation, we have to recognize, first of 
all, we are playing major catch-up on the scientific research 
here.
    There have been a lot of investment on the mitigation side. 
We are really just getting going on adaptation. That being 
said, there are many, many things that the scientists already 
agree on that are essentially no-regrets strategies for making 
our natural systems more resilient to harmful impacts of 
climate change. And we have heard some of them today, whether 
it is buffering people and wildlife from coastal storms by 
rebuilding wetlands complex, we should be doing those now. The 
longer we wait, the more difficult and expensive it gets.
    And so when we came here today and advocated for a very 
substantial large-scale investment in natural resources 
adaptation as part of climate change, this is something we can 
demonstrate today has far greater economic benefits than the 
cost. And there is no reason to hesitate.
    Mr. Inslee. Thank you. Dr. Beisner.
    Mr. Beisner. I would just simply ask the members of the 
committee to study very carefully the results of the findings 
of the Copenhagen consensus, which attempts to rank a variety 
of different responses to climate change, assuming the IPCC's 
scenarios to be accurate, ranks the variety of different 
responses, and responses to other problems pressing upon 
mankind.
    We don't have infinite resources. There are opportunity 
costs, and I think there are things that need to take much 
higher priority than anything we can do in either mitigation or 
adaptation in response to climate.
    Mr. Inslee. Lord Monckton.
    Mr. Monckton. Thank you, sir. Don't do cap-and-trade. 
Remember the poor. Remember your taxpayers. Beware rent 
seekers, particularly from the scientific community. Remember 
the warning of Eisenhower against the technocrats who would 
eventually take over and try to push you in various directions. 
Pay no attention. Keep your spending down as a state and as a 
nation, and God bless you all.
    Mr. Inslee. Mr. Waskow.
    Mr. Waskow. Thank you, Mr. Chairman. I would like to 
address two things quickly. First of all on the Katrina issue. 
I would agree that there was a massive failure of the levees. 
There was also a failure of the emergency response system, but 
I think the lesson that we should draw from this is what is 
necessary in the context of increasing risk from climate 
change. And as we have increasing risk on the one hand, we also 
have to have resilience and adaptive strategies on the other 
hand going together.
    And so dealing with the levees is not--or our emergency 
response system is not something separate and apart from 
addressing climate change. It should be integrated and should 
be integrated as well with a dramatic reduction in emissions.
    The second thing I just wanted to quickly address is the 
question of renewable energy in developing countries. And 
without getting into detail, just to say that our view is that 
renewable energy does, in fact, have many benefits in the 
development context. And often, in fact, renewable energy is 
what is going to be necessary for the poorest around the world 
to be able to have access to modern energy sources.
    Mr. Inslee. Thank you. Bishop.
    Bishop Holloway. Thank you very much. I thought it was very 
aptly put earlier by Mr. Shimkus that God has no intention of 
destroying what He has created. He has placed upon us, in 
addition to that, a covenant that we must honor with Him, but 
also with one another in the care of the earth. This is part of 
our responsibility as good stewards.
    It is also part of our responsibility to care for one 
another as we do this. There are others who are affected by 
what is going on with the changes in the climate and have no 
way of dealing with it in a way that is life sustaining or 
capacity building.
    We are committed to do that and continuing that work and 
call upon Congress at this time, not only to carry out its 
traditional responsibilities as well as it has in the past, but 
also to take leadership in thinking for those of us and to 
advocate for those of us who cannot speak for ourselves. Thank 
you very much.
    Mr. Inslee. Thank you. Mr. Shimkus, would you like to make 
a comment?
    Mr. Shimkus. Yeah. Thank you, Mr. Chairman. You know to 
assume that man can control the world's climate is a very 
dangerous and a very arrogant position. It reminds me of the 
biblical story of the Tower of Babel when man thought they 
could build a tower to reach God. It was in their arrogance 
that they thought they could do things that only God can do.
    What hasn't been talked about a lot--I think the impact on 
the poor has been talked about, the rural areas, the job 
dislocation. I think we have ferreted that out. What I would 
ask you all to look at is especially the climate cap-and-trade, 
cap and tax, this trading floor. Numerous times, my colleagues 
on the other side have attacked the New York Mercantile 
Exchange. Farmers have always attacked the Chicago Board of 
Trade because big money interests go into these, and it is an 
area for big money to make big money by setting the price for 
carbon on a trading floor. They will be held accountable when 
they attack the trading floor venue, as they always do, in this 
failed policy. Thank you, Mr. Chairman.
    Mr. Inslee. Thank you. Mr. Scalise, would you like to make 
a comment?
    Mr. Scalise. Thank you, Mr. Chairman. I would point out 
that the National Hurricane Center actually tracks hurricanes 
over the last 150 or so years, and you might not be able to see 
this where you are sitting, but there have actually been 
periods going back over 100 years where there were higher 
numbers of hurricanes and bigger hurricanes than Hurricane 
Katrina. But clearly the devastation that was caused from 
Katrina and the deaths related to it were caused by, number 
one, failure of federal levees, but also the erosion of the 
coast, none of which has anything to do with changing and 
climate temperatures.
    And clearly I think the science on global change is not 
settled. One thing that is settled is the cost, the cost to 
this country. Peter Orszag, President Obama's own budget 
director stated before this committee that this type of policy, 
cap-and-trade policy and energy tax, would actually cost every 
American family over $1,300 a year in increased energy costs 
that they would be paying.
    For those people that think people making below $250,000 a 
year won't pay a dime, you give them that $1,300 bill, you are 
going to have a hard time explaining it to them. That one area 
is settled as a result of this policy that we should defeat, 
and I yield back.
    Mr. Inslee. Thank you. I just would like to point out we 
have one of our witnesses from the Cornwall Alliance for the 
Stewardship of Creation, and I would just suggest that 
fulfilling our stewardship responsibility does not involve 
destroying all creatures great and small, the Lord God made 
them all. And in fact, that is what is going on right now.
    And I don't think we can help the polar bear adopt. They 
are gone unless something changes in our climate policy. I 
don't think the people of Shishmaref are going to have a 
problem there. Their city in Alaska is melting in the sea. We 
can't just tell them they are just going to have to pick up and 
move to Florida. It is just not their cup of tea, and it is not 
all right to make them move.
    And I would suggest that we appreciate wisdom from all over 
the country, but the Englishman I will be listening to is Sir 
Isaac Newton, whose physical laws are quite well accepted as is 
the science on everything we have been talking about here 
today. Thank you very much.
    Mr. Monckton. Until Einstein.
    [Whereupon, at 1:10 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T7818A.193
    
    [GRAPHIC] [TIFF OMITTED] T7818A.194
    
    [GRAPHIC] [TIFF OMITTED] T7818A.195
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
